APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Opinion and Order of the United States District
Court for the Northern District of Ohio
(July 17, 2019) .................................................... 1a
Order of the United States Court of Appeals
for the Sixth Circuit Granting Voluntary
Dismissal (January 9, 2020) .............................. 3a
Opinion of the United States Court of Appeals
for the Sixth Circuit (May 29, 2020) ................. 5a
Amended Opinion of the United States Court of
Appeals for the Sixth Circuit
(September 1, 2020).......................................... 14a
Journal Entry by the Cuyahoga County Court,
Relevant Excerpt (January 10, 2020) ............. 21a
REHEARING ORDER
Order of the United States Court of the Appeals
for the Sixth Circuit Denying Petition for
Rehearing (October 7, 2020) ........................... 24a

APPENDIX TABLE OF CONTENTS (Cont.)
OTHER DOCUMENTS
Plaintiffs’ Complaint
(July 15, 2019) .................................................. 26a
Appellants’ Corrected Brief
(September 18, 2019)........................................ 46a
Appellants’ Petition for En Banc
(June 16, 2020) ................................................. 61a
Appellants’ Memorandum of Law En Banc
(September 15, 2020)........................................ 75a

App.1a

OPINION AND ORDER OF THE
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF OHIO
(JULY 17, 2019)
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
________________________
COLUMBIA MHC EAST, LLC, ET AL.,

Plaintiffs,
v.
MELODY J. STEWART, ET AL.,

Defendants.
________________________
Case No. 1:19-cv-01613
Before: Dan Aaron POLSTER,
United States District Judge.
Plaintiffs filed the instant action on July 15, 2019.
Doc #: 1. The Complaint’s allegations arise from an
Opinion from the Ohio Court of Appeals issued on
December 20, 2018 and names three sitting Ohio
judges as defendants. See Compl. ¶¶ 5-7; 17. Judges
are absolutely immune for acts undertaken in their
official capacity. Studer v. Heeter, 869 F.2d 1493 (6th

App.2a
Cir. 1989). Thus, Plaintiffs do not have a cognizable
claim. Accordingly, the Court sua sponte DISMISSES
this action WITH PREJUDICE.
IT IS SO ORDERED.
/s/ Dan Aaron Polster
United States District Judge

App.3a
ORDER OF THE UNITED STATES COURT
OF APPEALS FOR THE SIXTH CIRCUIT
GRANTING VOLUNTARY DISMISSAL
(JANUARY 9, 2020)
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
________________________
COLUMBIA MHC EAST, LLC, dba Columbia Park
Water and Sewer System; KENNETH BURNHAM,

Plaintiffs-Appellants,
v.
MELODY J. STEWART, In her Official Capacity;
TIM MCCORMACK, In his Official Capacity;
PATRICIA BLACKMON, In her Official Capacity;
PUBLIC UTILITIES COMMISSION OF OHIO,

Defendants-Appellees.
U.S. BANK, N.A.; M. SHAPIRO REAL ESTATE
GROUP OHIO, LLC,

Defendants.
________________________
Case No. 19-3748
Upon consideration of the appellant's motion to
voluntarily dismiss appellees, M. Shapiro Real Estate

App.4a
Group Ohio, LLC and U.S. Bank, NA., pursuant to
Rule 42(b), Federal Rules of Appellate Procedure,
It is ORDERED that the motion is GRANTED
and the parties are dismissed from this appeal.
ENTERED BY
ORDER OF THE COURT
/s/ Deborah S. Hunt
Clerk
Issued: January 09, 2020

App.5a
OPINION OF THE UNITED STATES COURT OF
APPEALS FOR THE SIXTH CIRCUIT
(MAY 29, 2020)
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
________________________
COLUMBIA MHC EAST, LLC, ET AL.,

Plaintiffs-Appellants,
v.
MELODY STEWART, ET AL.,

Defendants-Appellees.
________________________
Case No. 19-3748
On Appeal from the United States District Court
for the Northern District of Ohio
Before: BATCHELDER, STRANCH, and
NALBANDIAN, Circuit Judges.
NALBANDIAN, Circuit Judge.
Parties who lose in state court typically try to
vindicate their interests through the appeal process.
And Plaintiffs here pursued that route. But Plaintiffs
went one step further—they sued again, this time in
federal court, naming individual state court judges
and others as defendants. If that seems unusual, it is.
Federal courts don’t second guess state court decisions by way of lawsuits against individual judges.

App.6a
This case grows out of an age-old story: Borrowers
borrow and borrowers default. The lender then sues—
in this case, in Ohio state court—and borrowers lose.
The lender in this case also moved the state court to
place the mortgaged property and a wastewater
treatment plant on the property in receivership. One
of the owners of that plant, Columbia MHC East,
LLC (Columbia East), opposed that motion but lost.
Columbia East unsuccessfully appealed to the Ohio
court of appeals and the Ohio Supreme Court.
So the plant’s owners—Columbia East, its manager (Kenneth Burnham), and Columbia Park Water
& Sewer System (CPWSS, “a d/b/a of” Columbia East)
(collectively, Plaintiffs)—came to federal court and
sued various individuals and entities involved in the
motion’s adjudication. (R. 1, Compl., PageID, 2.) But
they lost. They now appeal and ask us to reverse the
district court’s dismissal of their claims and remand
the case for further proceedings. But events after the
district court’s decision render Plaintiffs’ claims moot.
So we DISMISS the case for lack of jurisdiction.
I.
This case began when two entities not parties to
this suit (Borrowers) executed a commercial loan with
U.S. Bank National Association. They secured that
loan with a mortgage in part on real estate, fixtures,
and personal property situated on and in connection
with Columbia Park Mobile Home Community, a
senior living community in Olmsted Township, Ohio
(Columbia Park). But according to Columbia East, the
mortgage did “not encumber[]” a wastewater treatment
plant and waterworks system on the property that
services Columbia Park’s residents (WWTP). U.S. Bank

App.7a

Nat’l Ass’n v. Columbia Park E. MHP, L.L.C., 128
N.E.3d 793, 798 (Ohio Ct. App. 2018).
Borrowers unfortunately defaulted on that loan.
So U.S. Bank sued Borrowers in Ohio state court. Id.
at 795-96. Given WWTP’s significance to and physical
location on the mortgaged property, U.S. Bank also
moved the state court to appoint a receiver for that
facility. Id. at 795-96, 798; U.S. Bank Nat’l Ass’n v.
Columbia Park E. MHP, LLC, No. CV-17-887110
(Ohio Ct. Com. Pl. Mar. 1, 2018) (Receivership Order),
aff’d, 128 N.E.3d 793. Enter Columbia East—one of
WWTP’s three owners—who opposed U.S. Bank’s
motion. Columbia East argued that “the appointment
of a receiver was unnecessary” because, among other
reasons, Columbia East “had secured a buyer for the
property[.]” Columbia Park E., 128 N.E.3d at 796.
But the state court sided with U.S. Bank, appointed M. Shapiro Real Estate Group Ohio, LLC (Shapiro)
as the Receiver for WWTP, and authorized and directed
Shapiro to “take immediate possession and full control of’ that facility. Receivership Order at 1-2. So
Columbia East appealed. The state appeals court
found WWTP’s facilities “permanently affixed to the
mortgaged property[.]” Columbia Park E., 128 N.E.3d
at 799. It also found that the mortgage’s terms, Ohio
case law, and the circumstances “show that . . . [WWTP]
exists solely to serve the” mortgaged property. Id. at
798-99. Given its findings and even though U.S.
Bank “d[id] not deny” that the mortgage did “not
encumber[]” WWTP, the court agreed with the trial
court and found WWTP a “fixture” of the mortgaged
property. Id. at 798-99. And the court affirmed the
trial court’s judgment. Id. at 800. The state Supreme
Court refused to accept the appeal. See U.S. Bank

App.8a

Nat’l Ass’n v. Columbia Park E. MHP, L.L.C., 120
N.E.3d 868 (Ohio 2019) (table).
After the state court issued its Receivership Order,
Columbia East also submitted a rate increase application to the Public Utilities Commission of Ohio
(PUCO)—the state agency that regulates CPWSS’s
activities. (Appellant’s Br. at 3 (explaining that Columbia East “s[ought] a rate hike to repair the system”).)
But given the state court’s order, PUCO granted a
motion filed by U.S. Bank and Shapiro to intervene
in the ongoing regulatory action. PUCO then dismissed the pending rate increase applications on a
motion filed by U.S. Bank and Shapiro. And Columbia
East petitioned the state Supreme Court to review
that decision but ultimately applied to dismiss that
petition. See In re Columbia MHC E., L.L.C. , 137
N.E.3d 111 (Ohio 2019) (table) (granting the application to dismiss that petition).
Undeterred and unhappy with the consequences
of the Receivership Order and PUCO’s decision,
Plaintiffs sought relief in federal court. They named
PUCO, U.S. Bank, and Shapiro as defendants. They
also sued the three Ohio appellate judges who adjudicated the Receivership Order appeal (Justice Melody
J. Stewart, Judge Tim McCormack, and Judge Patricia
Ann Blackmon) in their official capacities.
Before the federal court, Plaintiffs asked only for
declaratory judgment and injunctive relief. They asked
the district court to enter judgment (1) declaring that
defendants’ “acts . . . violated] [] Plaintiffs’ constitutional
rights to compensation for property taken[,]” (2)
“declaring that the decision of the Ohio Court of
Appeals is unconstitutional on its face and deprived
Plaintiffs of their [rights under the] 5[th] and 14[th]

App.9a
Amendments . . . [because the decision] denied Plaintiffs
just compensation for property taken[,]” (3) declaring
PUCO’s actions unconstitutional because they “violated
Plaintiffs’ rights to due process under the 5[th] and
14[th] Amendments[,]” declaring PUCO’s decision to
dismiss Plaintiffs’ ratemaking application unconstitutional, and declaring U.S. Bank and Shapiro “conspired
to deprive Plaintiffs of their [constitutional] rights[.]”
(R. 1, Compl., PageID 16-17.) They also asked the court
to “[i]ssue a preliminary and permanent injunction
enjoining [U.S.] Bank and [Shapiro] . . . from disposing
[WWTP] . . . until just compensation to the Plaintiffs
has been paid[.]” (Id. at 17.) Plaintiffs explained to the
court that, without the injunction, “[n]o other remedy
is adequate or complete” to reach the Plaintiffs’ goal:
“to prevent the immediate sale of” WWTP. (Id.; see
also id. at 15-16 (discussing the significance of the
suit’s outcome given U.S. Bank and Shapiro’s intention to sell WWTP).)
The district court refused. It dismissed Plaintiffs’
claims against the state judges on judicial immunity
grounds. Without further analysis, the court also
found that “Plaintiffs do not have a cognizable claim”
and sua sponte dismissed the action—including the
claims Plaintiffs raised against nonjudicial defendants—with prejudice. (R. 4, Op. & Order, PageID 46.)
Plaintiffs appeal.
While this appeal was pending, Plaintiffs agreed
to sell WWTP as part of its settlement agreement
with Shapiro and U.S. Bank. So we granted Plaintiffs’
motion to dismiss Shapiro and U.S. Bank from the
suit. The remaining defendants then moved to dismiss
the case for lack of jurisdiction because the settlement

App.10a
rendered Plaintiffs’ remaining claims against them
moot.
II.
Article III “conditions the exercise of federal
judicial power on the existence of a live, ongoing case
or controversy.” Pettrey v. Enter. Title Agency, Inc.,
584 F.3d 701, 703 (6th Cir. 2009). The case must
satisfy that condition “at all stages of review, not
merely at the time the complaint is filed.” Arizonans
for Official English v. Arizona, 520 U.S. 43, 67 (1997)
(quoting Preiser v. Newkirk, 422 U.S. 395, 401 (1975)).
So “[a] case is moot when the issues presented are no
longer ‘live’ or the parties lack a legally cognizable
interest in the outcome.” Aaron v. O’Connor, 914 F.3d
1010, 1015 (6th Cir. 2019) (quoting County of Los
Angeles v. Davis, 440 U.S. 625, 631 (1979)). And in
those circumstances, federal courts no longer have
jurisdiction and must dismiss the case. Pettrey, 584
F.3d at 703; see also Demis v. Sniezek, 558 F.3d 508,
512 (6th Cir. 2009) (“[M]ootness is a jurisdictional
question.”).
“[N]either party has a legally cognizable interest
in the final determination of the underlying questions
of fact and law” where the alleged violation will
likely not recur and where “interim relief or events
have completely and irrevocably eradicated the effects
of the alleged violation.” Davis, 440 U.S. at 631. In
other words, “the test for mootness is whether the
relief sought would, if granted, make a difference to the
legal interests of the parties.” Sullivan v. Benningfield,
920 F.3d 401, 410 (6th Cir. 2019) (quoting McPherson
v. Mich. High Sch. Athletic Ass’n, 119 F.3d 453, 458
(6th Cir. 1997) (en banc)). And settlement agreements

App.11a
qualify as the types of interim relief or events that
may “deprive the court of the ability to give meaningful
relief” and render a case moot. See id.; see also Int’l

Union, United Auto., Aerospace, Agr. & Implement
Workers of Am. v. Dana Corp., 697 F.2d 718, 721 (6th
Cir. 1983) (en banc).

Two exceptions, however, exist. When “one issue
in a case has become moot, but the case as a whole
remains alive because other issues have not become
moot” or “when the situation is ‘capable of repetition
yet evading review,’ . . . then the litigation remains a
viable controversy which the federal courts may
resolve.” Dana Corp., 697 F.2d at 721 (internal citation
omitted) (quoting Univ. of Tex. v. Camenisch, 451 U.S.
390, 394 (1981); S. Pac. Terminal Co. v. Interstate
Commerce Comm’n, 219 U.S. 498, 515 (1911)). Similarly, a “defendant’s voluntary cessation of a challenged
practice does not deprive a federal court of its power
to determine the legality of the practice.” Youngstown
Publ’g Co. v. McKelvey, 189 F. App’x 402, 405 (6th Cir.
2006) (quoting City of Mesquite v. Aladdin’s Castle,
Inc., 455 U.S. 283, 289 (1982)); see also Mokdad v.
Sessions, 876 F.3d 167, 171 (6th Cir. 2017).
The district court did not resolve whether the
settlement agreement rendered Plaintiffs’ case moot
because Plaintiffs did not reach the agreement with
PUCO and Shapiro until well after the district court
dismissed Plaintiffs’ claims. But that does not change
our review of the mootness question because we
“review[] jurisdictional issues de novo.” Demis, 558
F.3d at 512. And “[t]he heavy burden of demonstrating
mootness rests on the party claiming mootness.” Cleveland Branch, NAACP v. City of Parma, 263 F.3d 513,
531 (6th Cir. 2001).

App.12a
So we must address whether we can provide any
“meaningful relief’ to Plaintiffs on their claims. For
the injunctions Plaintiffs sought against U.S. Bank
and Shapiro, the answer is an obvious no. Plaintiffs
sought to enjoin U.S. Bank and Shapiro only from
“disposing of’ WWTP—something all three parties
agreed to in the settlement agreement—“until [the
Plaintiffs received] just compensation[.]” (R. 1, Compl.,
PageID 17.) Plaintiffs’ agreement to sell WWTP would
supersede any injunctive relief that we can provide
so that claim is now moot.
The settlement agreement also mooted Plaintiffs’
remaining claims. The declaratory relief Plaintiffs
seek deals only with WWTP—e.g., whether PUCO’s
regulatory decision violated Plaintiffs’ rights, whether
the mortgaged property included WWTP, or whether
the state court’s Receivership Order violated Plaintiffs’
constitutional rights. And Plaintiffs requested declaratory relief only to support its goal of having us declare
the Receivership Order an uncompensated—and therefore unconstitutional—taking so they could “prevent
the immediate sale of WWTP until Plaintiffs “ha[d]
been paid.” (Id.)
But Plaintiffs have agreed to sell WWTP, “completely and irrevocably eradicat[ing] the effects” of
the disputed Receivership Order and any sale of
WWTP Plaintiffs previously opposed. Davis, 440 U.S.
at 631. Even if this court granted the declaratory
relief Plaintiffs seek, that relief “would . . . make
[no] difference to the legal interests of the parties.”
Benningfield, 920 F.3d at 410 (quoting McPherson,
119 F.3d at 458). And Plaintiffs’ remaining declaratory
judgment claims do not fall within either mootness
exception.

App.13a
In any event, we question whether a dissatisfied
litigant may ever sue an individual state judge in
federal court over a decision the state judge rendered
after proper adjudication and under their official
duties.1 Despite not “stak[ing] out our own position
on the matter,” this court has at least “cited . . .
favorably” the proposition that “there is usually no case
or controversy between judges acting as adjudicators
and litigants displeased with litigation outcomes.”
McNeil v. Cmty. Prob. Servs., LLC, 945 F.3d 991, 99697 (6th Cir. 2019) (citing Brandon E. ex rel. Listenbee
v. Reynolds, 201 F.3d 194, 197-200 (3d Cir. 2000); In
re Justices of Supreme Court of P.R., 695 F.2d 17, 2124 (1st Cir. 1982)). And although we need not resolve
that question today, see Arizonans for Official English,
520 U.S. at 66-67 (explaining that we may resolve a
mootness question before reaching standing), we doubt
Plaintiffs’ ability to bring the claims they did against
the state judges in federal court.
III.
Plaintiffs’ settlement agreement with PUCO and
Shapiro mooted this case. For that reason, we DISMISS
for lack of jurisdiction.

1 We have, however, recognized that prospective declaratory relief
might be available against judicial officers in limited circumstances
subject to restrictions like abstention doctrines, Article III
limitations, and the Rooker-Feldman doctrine. See, e.g., Cooper
v. Rapp, 702 F. App’x 328, 333-34 (6th Cir. 2017); Ward v. City of
Norwalk, 640 F. App’x 462, 467-68 (6th Cir. 2016).

App.14a
AMENDED OPINION OF THE UNITED STATES
COURT OF APPEALS FOR THE SIXTH CIRCUIT
(SEPTEMBER 1, 2020)
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
________________________
COLUMBIA MHC EAST, LLC, ET AL.,

Plaintiffs-Appellants,
v.
MELODY STEWART, ET AL.,

Defendants-Appellees.
________________________
Case No. 19-3748
On Appeal from the United States District Court
for the Northern District of Ohio
Before: BATCHELDER, STRANCH, and
NALBANDIAN, Circuit Judges.
NALBANDIAN, Circuit Judge.
We issue this amendment to our original opinion
in this appeal filed on May 29, 2020. To briefly recap,
owners of a wastewater treatment plant (WWTP)
—Columbia MHC East, LLC (Columbia East), its
manager (Kenneth Burnham), and Columbia Park
Water & Sewer System (CPWSS, “a d/b/a of Columbia
East) (collectively, Plaintiffs)—unsuccessfully opposed a
motion brought by U.S. Bank National Association

App.15a
(U.S. Bank) in this appeal to appoint a receiver for
WWTP. U.S. Bank Nat’l Ass’n v. Columbia Park E.
MHP, L.L.C., 128 N.E.3d 793, 795-96, 798 (Ohio Ct.
App. 2018); U.S. Bank Nat’l Ass’n v. Columbia Park
E. MHP, LLC, No. CV-17-887110 (Ohio Ct. Corn. Pl.
Mar. 1, 2018) (Receivership Order), aff’d, 128 N.E.3d
793. After the state issued the Receivership Order,
Columbia East also submitted a rate increase application to the Public Utilities Commission of Ohio
(PUCO)—the state agency that regulates CPWSS’s
activities. But given the state court’s order, PUCO
granted a motion filed by U.S. Bank and Shapiro to
intervene in the ongoing regulatory action. PUCO
then dismissed the pending rate increase applications
on a motion filed by U.S. Bank and Shapiro. And
Columbia East petitioned the Ohio Supreme Court to
review that decision but ultimately applied to dismiss
that petition. See In re Columbia MHC E., L.L.C., 137
N.E.3d 111 (Ohio 2019) (table) (granting the application to dismiss that petition).
So in federal court, Plaintiffs sued U.S. Bank,
the receiver appointed by the state court (M. Shapiro
Real Estate Group Ohio, LLC or Shapiro), the judges
that issued the Receivership Order (Justice Melody
J. Stewart, Judge Tim McCormack, and Judge Patricia
Ann Blackmon) in their official capacities, and PUCO.
Plaintiffs asked only for declaratory judgment and
injunctive relief. They asked the district court to enter
judgment (1) declaring that defendants’ “acts . . .
violat[ed] [] Plaintiffs’ constitutional rights to compensation for property taken[,]” (2) “declaring that the decision of the Ohio Court of Appeals is unconstitutional
on its face and deprived Plaintiffs of their [rights
under the] 5[th] and 14[th] Amendments . . . [because

App.16a
the decision] denied Plaintiffs just compensation for
property taken[,]” (3) declaring PUCO’s actions unconstitutional because they “violated Plaintiffs’ rights to
due process under the 5[th] and 14[th] Amendments[,]”
declaring PUCO’s decision to dismiss Plaintiffs’ ratemaking application unconstitutional, and declaring
U.S. Bank and Shapiro “conspired to deprive Plaintiffs
of their [constitutional] rights[.]” (R. 1, Compl., PageID
16-17.) They also asked the court to “[i]ssue a preliminary and permanent injunction enjoining [U.S.]
Bank and [Shapiro] . . . from disposing [WWTP] . . .
until just compensation to the Plaintiffs has been
paid[.]” (Id. at 17.) Plaintiffs explained to the court
that, without the injunction, “[n]o other remedy is
adequate or complete” to reach the Plaintiffs’ goal: “to
prevent the immediate sale of WWTP. (Id.; see also
id. at 15-16 (discussing the significance of the suit’s
outcome given U.S. Bank and Shapiro’s intention to
sell WWTP).)
The district court dismissed Plaintiffs’ claims
against the state judges on judicial immunity. Without
further analysis, the court also found that “Plaintiffs do
not have a cognizable claim” and sua sponte dismissed
the action—including the claims Plaintiffs raised
against the nonjudicial defendants—with prejudice.
(R. 4, Op. & Order, PagelD 46.) Plaintiffs appealed.
After they filed their appeal, however, Plaintiffs
moved this court to dismiss the private-party Defendants because, in their words, as part of a settlement,
they “ha[d] agreed to an Agreed Order Approving Sale
of the Receivership Property,” thereby resolving the
case for those defendants. (A.R. 31, Mot., 2 (emphasis
omitted).) We granted that motion. In response, the
remaining Defendants moved to dismiss the case

App.17a
because, they argued, without the private parties the
case was moot. This panel agreed, and we dismissed
the case for lack of jurisdiction. Columbia MHC E.,
LLC v. Stewart, --F. App’x--, 2020 WL 2787697 (6th
Cir. May 29, 2020).
Plaintiffs now contend, however, that we erred
when we dismissed their appeal. They allege that we
based our decision on erroneous facts—that there
never was any agreement, only “an unaccepted offer” for
a settlement agreement or an “unaccepted agreement
to sell” WWTP. (A.R. 48, Pet., 5 (emphasis omitted).)
They explain that the signatories “never executed”
the agreement to sell the property and that “the deadline for sale has come and gone.” (Id. at 7.) Plaintiffs
do not say that the state courts have vacated the
Agreed Order but given the events after our decision,
Plaintiffs assert that “[t]he agreement is null and
void and no longer exists.” (Id.)
But the Agreed Order remains on the docket in
the state court. And, importantly, nothing that Plaintiffs say here changes the fact that we dismissed the
private parties with prejudice, prompted by Plaintiffs’
request. So we again DISMISS for lack of jurisdiction.
I.
Plaintiffs find themselves in this predicament
because of their own representations. Before our first
decision to dismiss the case, Plaintiffs moved this
court to dismiss Shapiro and U.S. Bank with prejudice
because, they explained, “Plaintiffs[] have agreed to
an Agreed Order Approving Sale of the Receivership
Property” (WWTP). (A.R. 31, Mot., 1-2 (emphasis omitted).) Based on those representations, the remaining
Defendants moved to dismiss the case for lack of juris-

App.18a
diction. In that motion, filed in mid-January 2020, those
Defendants explained that the Plaintiffs “announced
their settlement of the underlying dispute at issue
here” and their “agreement to the sale of th[e] contested
receivership property, including the waste water treatment plant.” (A.R. 39, Mot., 3-5.) Rather than dispute
the agreement to sell WWTP, Plaintiffs responded only
that “the referenced settlement did not extinguish
this Court’s jurisdiction[.]” (A.R. 40, Resp., 3.) Quoting
directly from the agreement, Plaintiffs explained to
this court that “the settlement agreement explicitly
and specifically states” that the appeal “w[ould]
remain pending against” the remaining defendants.
(Id. at 4 (emphasis omitted); id. at 9.) So Plaintiffs
argued that while they “did indeed voluntarily dismiss
the claims against” U.S. Bank and Shapiro “as agreed
[,]” Plaintiffs “retained their [] claims against” the
remaining defendants. (Id. at 5 (emphasis added);
see also id. at 9 (explaining that the Plaintiffs “have
not divested this court’s jurisdiction because of the
settlement” (emphasis added)).) We dismissed the
appeal for lack of jurisdiction in late May 2020—about
four months after the parties disputed the effect of
the agreement to sell WWTP.
During those four months, not once did Plaintiffs
tell this panel that the sale never went through. Nor
did they make this argument, even after March 2020
when, they allege, “[t]he Bank, as mortgagee, refused
to accept the agreement as written and no bid was
submitted for the minimum amount at auction[.]”
(A.R. 48, Pet., 4) Only in June 2020—five months after
the parties’ initial motions discussing the agreement’s
effects, three months after the Bank allegedly refused
to accept the agreement, and after we released our

App.19a
opinion—did Plaintiffs suggest that the agreement
was only an unaccepted proposal to sell WWTP. On
that representation, Plaintiffs argue that we erroneously dismissed their appeal as moot.
But we dismissed Shapiro and U.S. Bank with
prejudice per Plaintiffs’ request, not upon a contingency
of a valid settlement agreement. This remains true
regardless of any dispute about the execution of any
underlying settlement agreement. If Plaintiffs now
argue that they never executed a settlement agreement,
we note there is an agreed order for the sale that
remains on the docket of the Common Pleas Court in
Cuyahoga County. See Agreed Order Approving Sale
of the Receivership Property (Jan. 10, 2020).1 And in
any event, we also will not allow Plaintiffs to denounce
the very agreement on which they had relied. See,
e.g., New Hampshire v. Maine, 532 U.S. 742, 749 (2001)
(noting that judicial estoppel applies when a party
successfully “assumes a certain position in a legal
proceeding” and “may not thereafter, simply because
his interests have changed, assume a contrary position,”
particularly if it would prejudice the other party).
It appears that Plaintiffs’ real grievance concerns
noncompliance with the settlement agreement. But
this is not the proper forum for that. See RE/MAX Int’l,
Inc. v. Realty One, Inc., 271 F.3d 633, 641 (6th Cir.
2001) (citing Kokkonen v. Guardian Life Ins. Co. of Am.,
511 U.S. 375, 376-78, 381 (1994)) (noting that federal
courts do not have “inherent power to vindicate their
1 The agreed order can be found on the docket for the Cuyahoga
County Court of Common Pleas here: https://cpdocket.cp.
cuyahogacounty.us/CV_CaseInformation_Docket.aspx?q=Nxt
TDdrRK-IpbH-veiou4w2

App.20a
own authority where parties enter into a voluntary
agreement resolving their federal lawsuit” unless
the court retained jurisdiction or incorporated the
terms of the settlement agreement into the order).
This Court dismissed based on Plaintiffs’ representations, not based on the terms of the settlement agreement.
II.
Plaintiffs’ appeal remains moot. Plaintiffs’ request
for dismissal caused us to dismiss the private parties
with prejudice, and, as we noted in our original opinion,
all remaining matters became moot after that dismissal.
Because that has not changed, we DISMISS for lack
of jurisdiction.

App.21a
JOURNAL ENTRY BY THE CUYAHOGA COUNTY
COURT, RELEVANT EXCERPT
(JANUARY 10, 2020)
IN THE COURT OF COMMON PLEAS
CUYAHOGA COUNTY, OHIO
________________________
U.S. BANK NATIONAL ASSOCIATION,

Plaintiff,
v.
COLUMBIA PARK EAST MHP LLC,

Defendant.
________________________
Case No: CV-17-887110
Before: Shannon M. GALLAGHER, Judge.
AGREED ORDER APPROVING SALE OF THE
RECEIVERSHIP PROPERTY. O.S.J.

Judge Signature
Date
[...]
12. Receiver is authorized to do all things
necessary and to execute all necessary or desirable

App.22a
instruments and documents to consummate, the sale
of the Receivership Property in accordance with this
Order or the PA, as applicable.
13. Borrower West’s claims asserted in its
Complaint to Quiet Title and for Declaratory Judgment
filed on May 12, 2017, Case No. CV 17 880316 (the
“Quiet Title Action”), and Borrower East’s and
Columbia Brook Park Management, LLC’s (“CBPM”)
counterclaims against Borrower West filed on June 14,
2017 in the Quiet Title Action shall remain pending,
although any and all relief afforded in the Quiet Title
Action shall be satisfied solely from the proceeds of sale,
if any, of Receivership Property after payment of all
amounts specified in paragraph 8(a) above. The claims
asserted in Case No. CV-17887110 remain pending.
14. Borrowers’ Joint Motion to Enforce Settlement
Agreement against US. Bank, N.A. filed on April 22,
2019 in the Quiet Title Action and Case No. CV-17887110 is DENIED.
15. No later than 30 days after entry of this
Order, Columbia MHC East, LLC (“Columbia MHC”)
shall file or cause to be filed the following dismissal
entries (collectively, the “Dismissal Entries”) in the
following cases (collectively, the “Pending Appeals”):
a.

A dismissal with prejudice of Receiver (named
as M. Shapiro Real Estate Group, LLC) and
Plaintiff herein (U.S. Bank, N.A. as Trustee)
from Columbia MHC East, LLC, et al v
Melody Stewart, et al, 6th Circuit Court of
Appeals, Case No. 19-3748 (the “6th Circuit
Case”). The 6th Circuit Case will remain
pending against Melody J. Stewart, Tim
McCormack, Patricia Ann Blackmon and

App.23a
Public Utilities Commission of Ohio. Columbia
MHC acknowledges that it is not asserting
any claim, demand or cause of action against
the Receivership Property in the 6th Circuit
Case and that it will not hereinafter assert
any claim, demand or cause of action against
any subsequent owner of the Receivership
Property relative to the Receivership Property; and
b.

A dismissal with prejudice of In the Matter

of the Applications of Columbia MHC East
LLC d/b/a Columbia Park Water & Sewer
Systems for an Increase in Rates & Charges,
Supreme Court of Ohio, Case No. 2019-0347.

If the Dismissal Entries have not been filed in the
Pending Appeals within 30 days after entry of this
Order, Receiver is authorized to file a copy of this
Order in each of the Pending Appeals, which shall
operate as the dismissal with prejudice, as applicable,
as required above with each Pending Appeal.
16. Receiver’s 6th Motion for Fees and Costs filed
on October 1, 2019, and Receiver’s 7th Motion for Fees
and Costs filed on December 3, 2019, are unopposed
and GRANTED.
17. As indicated by their signatures below, the
parties waive any and all rights to appeal this Order.
18. This is a final, appealable order and; pursuant
to Civ. R. 54, there is no just reason for delay. IT IS
SO ORDERED.
/s/ Shannon M. Gallagher
Judge

App.24a
ORDER OF THE UNITED STATES COURT OF
THE APPEALS FOR THE SIXTH CIRCUIT
DENYING PETITION FOR REHEARING
(OCTOBER 7, 2020)

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
________________________
COLUMBIA MHC EAST, LLC, ET AL.,

Plaintiffs-Appellants,
v.
MELODY STEWART, ET AL.,

Defendants-Appellees.
________________________
Case No. 19-3748
On Appeal from the United States District Court
for the Northern District of Ohio
Before: BATCHELDER, STRANCH, and
NALBANDIAN, Circuit Judges.
The court received a petition for rehearing en
banc. The original panel has reviewed the petition
for rehearing and concludes that the issues raised in
the petition were fully considered upon the original
submission and decision of the case. The petition then

App.25a
was circulated to the full court.* No judge has requested a vote on the suggestion for rehearing en banc.
Therefore, the petition is denied.
ENTERED BY ORDER OF THE COURT
/s/ Deborah S. Hunt, Clerk

* Judge Murphy recused himself from participation in this ruling.

App.26a
PLAINTIFFS’ COMPLAINT
(JULY 15, 2019)
UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF OHIO
________________________
COLUMBIA MHC EAST, LLC, dba Columbia Park
Water and Sewer System and KENNETH
BURNHAM,

Plaintiffs,
v.
MELODY J. STEWART, (In her Official Capacity);
TIM MCCORMACK, (In his Official Capacity);
PATRICIA ANN BLACKMON, (In her Official
Capacity); PUBLIC UTILITIES COMMISSION OF
OHIO, U.S. BANK, N.A.; M. SHAPIRO REAL
ESTATE GROUP OHIO, LLC

Defendants.
________________________
1. 42 U.S.C. § 1983 (5th Amdt. Taking Clause)
2. 42 U.S.C. § 1983 (14th Amdt. Equal Protection)
3. Ohio Constitution Art 1, § 19
4. 42 U.S.C. § 1985 (3) (Conspiracy to Deprive)
5. 28 U.S.C. § 1343 (a)(1) and (3)
6. Injunctive and Declaratory Relief Requested
7. Unjust Enrichment
8. 42 U.S.C. 1983 (5th Amdt. Due Process)

App.27a
COMPLAINT & (REQUEST FOR INJUNCTIVE
AND DECLARATORY RELIEF)
Plaintiffs allege, to the best of their information,
knowledge and belief, as follows:
PARTIES
1. Plaintiff Columbia MHC East, LLC (“Columbia
East”) is a New York Limited Liability Corporation,
with principal offices at 1080 Pittsford-Victor Road
#202, Pittsford, New York 14534.
2. The Members of Columbia MHC East, LLC
are Manager Member Kenneth Burnham, Robert C.
Morgan, Gorge DeGraca, James A. Martin and Steven
J. Gordon.
3. Plaintiff Columbia Park Water & Sewer System
(“CPWSS”) is a d/b/a of Columbia MHC East and is a
registered entity in Cuyahoga County, PUCO and with
the Ohio Secretary of State, with principal offices at
1080 Pittsford-Victor Road #202, Pittsford, New York
14534.
4. Plaintiff Kenneth Burnham is an adult resident
of the State of New York who resides at 70 Old
Stonefield Way, Pittsford, NY 14534.
5. Defendant Melody J. Stewart (“Judges”) is a
duly sitting Judge on the Ohio Court of Appeals
Eighth District and at all relevant times herein was
acting under color of state law.
6. Defendant Tim McCormack (“Judges”) is a
duly sitting Judge on the Ohio Court of Appeals
Eighth District and at all relevant times herein was
acting under color of state law.

App.28a
7. Defendant Patricia Ann Blackmon (“Judges”)
is a duly sitting Judge on the Ohio Court of Appeals
Eighth District and at all relevant times herein was
acting under color of state law.
8. Defendant Public Utilities Commission of Ohio
(“PUCO”) is a duly authorized department of the Ohio
state government and at all relevant times herein
was acting under the color of the laws of the State of
Ohio.
9. Defendant US Bank, N.A. (“Bank”) is a national
bank with principal offices located at 800 Nicollet
Mall, Minneapolis, MN 55402.
10. Defendant M. Shapiro Real Estate Group,
LLC (“Receiver”) is a real estate Limited Liability
Corporation with principal offices at 31550 Northwestern Hwy., Ste. 220, Farmington Hills, MI 48334.
JURISDICTION
11. This Court has jurisdiction over this action
pursuant to Title 28 U.S.C. §§ 1331, 1332 and § 1343
(1) and (3) in that the controversy arises under the
United States Constitution and under 42 U.S.C.
§ 1983 and 42 U.S.C. § 1985 and the 5th and 14th
Amendments of the US Constitution.
12. The amount in controversy exceeds $75,000.
13. This action involves claims by the Plaintiffs
against the Defendants for violations of the Fifth and
Fourteenth Amendments to the U.S. Constitution.
14. This Court has authority to award attorneys’
fees pursuant to 42 U.S.C. § 1988. Plaintiffs further
invokes the supplemental jurisdiction of this Court

App.29a
under 28 U.S.C. § 1367(a) to hear and adjudicate
state law claims.
15. Each and all of the acts alleged herein were
done by the Defendants, or their officers, agents,
servants, agents or employees under color and pretense
of the precedents, statutes, regulations, laws, customs
and usages of the State of Ohio.
VENUE
16. Venue is proper in this district under 28
U.S.C. § 1391(b) because a substantial part of the
events giving rise to the claims in this action occurred
or arose in this district and the property at issue is
located in this district.
PRELIMINARY STATEMENT OF CLAIM
17. This action results from an Opinion of the
Ohio Court of Appeals issued on December 20, 2018,
that also issued a mandate to the Court of Common
Pleas of Cuyahoga County, various journal entries
and acts committed by the Public Utilities Commission
of Ohio and the conduct of Defendant US Bank and
the Defendant Receiver M. Shapiro Real Estate Group,
LLC.
18. Defendant US Bank commenced an action
in the Court of Common Pleas of Cuyahoga County,
Ohio, against Columbia Park East MHP, LLC (“Columbia East”) and Columbia Far West Investors, LLC
(“Columbia West”) seeking judgment of foreclosure
on a matured promissory Note (“Note”).
19. US Bank held the Note as Trustee for the
Registered Holders of Merrill Lynch Mortgage Trust

App.30a
2007-C1, Commercial Pass-Through Certificates, Series
2007-C1.
20. The property secured by the Note was a
mobile home park owned by Columbia Park East MHP,
LLC and Columbia Far West Investors, LLC located
in Cuyahoga County, Ohio.
21. None of the water and waste facility owned
by Plaintiffs CPWSS was secured by the Mortgage or
Note.
22. Part of the relief requested by the Bank was
the appointment of a Receiver.
23. The trial court appointed a Receiver and
also granted the Receiver authority over assets not
covered under either the Mortgage or the Note.
24. The actual property not secured by either
the Mortgage or the Note consisted of the property
solely owned by the herein Plaintiffs Columbia MHC
East, LLC, Columbia Park Water & Sewer System
and Kenneth Burnham.
25. There did not exist privity of contract between
the Bank and the herein Plaintiffs or with the
Borrowers and the herein Plaintiffs.
26. The water system provided water and the
waste treatment plant treated and provided sewage
disposal not only for the mobile home park but also
other properties owned by unrelated third parties, to
wit, a commercial Dollar General store, a medical
office building and a single family residence, all
located on different land parcels than the mobile
home park and not secured by the Mortgage or Note.

App.31a
27. The Order appointing the Receiver, dated
March 1, 2018, stated in relevant part at 6.1, “Although
the Receiver shall have possession and control of the
Receivership Property, the Receiver shall not take title
to the Receivership Property. Title to the Receivership Property shall remain in the name of Borrower.
. . . unless foreclosed upon by the Plaintiff, in which
case title to the Receivership Property will remain in
the name of the Borrower until delivery of the
Sheriff’s Deed.”
28. At present, no Sheriff’s Deed has been
delivered to the Borrowers.
29. The trial court’s Order described Receivership
Property as, inter alia, “7.1(g) Any fixtures, trade
fixtures and tenant improvements or [sic] every kind
or nature located in or upon or attached to, or used or
intended to be used in connection with the operation
of the Mortgaged Property. . . . ”
30. The trial court failed to order compensation
to the present Plaintiffs for the taking of property
not encumbered by the mortgage including revenue
from properties not included in the Mortgage, Loan
or Note.
31. Columbia East and Columbia West appealed
32. On December 20, 2018, the Ohio Court of
Appeals issued its Opinion affirming the lower court’s
Order appointing the Receiver.
33. The Ohio Court of Appeals ruled that the
property owned by the herein Plaintiffs was a fixture
upon the Mortgaged Property.

App.32a
34. The Ohio Court of Appeals failed to order
compensation to the true owners of the water and
sewage treatment facilities.
35. The Ohio Court of Appeals found that Defendant US Bank admitted that the water system and
sewage treatment plant is not a part of the Mortgaged
Property.
36. The Defendant Bank and the Borrowers under
the Mortgage and Note did not contemplate ownership
of the CPWSS by either party to the Loan Agreement.
37. The water system and sewage treatment plant
is not an Improvement owned or acquired by the
Mortgagor.
38. The herein Plaintiffs have an established
property right to the water and sewage treatment
plant.
39. The Ohio Court of Appeals recharacterized
as public property what was previously private
property.
40. The Ohio Court of Appeals intentionally and
deliberately failed, in determining that the herein
Plaintiffs’ property was, in fact, a fixture and therefore
the property of the Bank, to properly consider the
ownership of the property and the intention of the
Bank and the Borrowers to make the water and sewage
treatment plant a part of the Mortgaged Property.
41. The Ohio Court of Appeals erroneously stated
in its Opinion that the “wastewater treatment plant
exists solely to serve the Columbia Park facility.” This
statement by the Court is factually inaccurate and
undermines it’s determination that the property is a
fixture.

App.33a
42. The Ohio Court of Appeals issued a special
mandate that directed the trial court to carry their
opinion into execution.
43. The Borrowers appealed to the Ohio Supreme
Court which, on April 17, 2019, declined to accept
jurisdiction of the appeal.
44. Defendant PUCO entered a Journal Entry
Order (“JE”) dated January 23, 2019, finding that the
assets of Plaintiff East were a fixture upon the property
of the Borrower, dismissing two (2) Applications for
Rate Increases of the Plaintiff and giving ownership
and control of CPWSS’s property and income to
Defendants US Bank and the Receiver.
45. On January 29, 2019, Plaintiffs received a
letter from the Receiver shortly after the JE of the
PUCO demanding that ownership and control of the
assets and income of the public utility owned by the
Plaintiffs be turned over to the Receiver. In the face
of the JE by the PUCO, Plaintiffs complied with this
demand.
46. On or about April 19, 2019, Plaintiff East
sent a Notice of Appropriation to Defendant PUCO
requesting that the PUCO determine the value of the
assets of Plaintiff East and pay the appropriate and
just compensation. No response was ever forthcoming.

App.34a
COUNT I
VIOLATION OF THE U.S. CONSTITUTION
(FIFTH AMENDMENT “TAKING CLAUSE” AND
THE 14TH AMENDMENT DUE PROCESS AND
PRIVILEGES AND IMMUNITIES CLAUSE)
47. Plaintiffs incorporate each preceding paragraph as if fully re-alleged here.
48. The Fifth Amendment of the US Constitution
states in relevant part, “No person shall . . . be deprived
of life, liberty, or property, without due process of
law; nor shall private property be taken for public
use, without just compensation.”
49. The Ohio Court of Appeals took Plaintiffs’
property without just compensation in violation of the
Takings Clause of the Fifth Amendment, as applied
against the States through the Fourteenth Amendment.
50. The Defendant Judges violated clearly established constitutional rights of which a reasonable
person would have known.
51. The Ohio Court of Appeals’ Order acknowledges that the taking was for the benefit of public
use.
52. The Ohio Court of Appeal’s Order unconstitutionally took the property of the Plaintiffs herein
and gave it to a private non-governmental entity and
private shareholders.
53. The Ohio Court of Appeals declared that what
was once the Plaintiffs’ established rights to the
private property consisting of the CPWSS no longer
existed.

App.35a
54. The action of the Ohio Court of Appeals is a
judicial action and the actions of the PUCO is an
administrative action that both operates as functionally
equivalent to an unconstitutional taking.
55. The Ohio Court of Appeals and the PUCO
violated Plaintiffs’ right to exclude others from its
property.
56. Plaintiff East gave notice to the PUCO of
the taking and requested compensation.
57. The Plaintiffs are entitled to just compensation for the taking.
COUNT II
(VIOLATION OF 5TH AMENDMENT DUE
PROCESS OHIO PUBLIC UTILITIES
COMMISSION)
58. Plaintiffs incorporate each preceding paragraph as if fully re-alleged here.
59. The Public Utilities Commission of Ohio has
statutorily waived its right against suit and no
immunity exists.
60. The Ohio Public Utilities Commission took
Plaintiffs’ property without just compensation in violation of the Takings Clause of the Fifth Amendment,
as applied against the States through the Fourteenth
Amendment.
61. The Public Utilities Commission of Ohio has
adopted regulations and the Ohio Legislature has
passed rules requiring just compensation to property
owners who are negatively affected or impacted in
any way, manner or act performed by the PUCO.

App.36a
62. During the pendency of the lower court trial,
the Ohio Public Utilities Commission engaged in talks
with the herein Plaintiffs regarding several state EPA
violations and corrective procedures to be performed
to repair the water facility.
63. On August 15, 2018 and October 9, 2018,
the Plaintiffs herein applied to the PUCO for an
emergency rate increase in order to finance the
remedial measures necessary to bring the facility up
to standards. The application also included a request
for waiver of certain rate base schedules involving
plant-in-service4 [sic], depreciation accrual rates, and
jurisdictional reserve balance as well as a fully
allocated cost of service study for the addition of a
new customer class.
64. While the Plaintiffs’ Application was pending
before the PUCO, Defendants US Bank and Receiver,
and without right of title, filed a Joint Motion for
Leave to Intervene, dated November 16, 2018, in the
Emergency and Permanent Rate Application of the
Plaintiffs.
65. The pretense utilized by the Bank and the
Receiver to intervene was that they had some authority
to intervene superior to right of title in a rate making
case before the PUCO because of their involvement in
the underlying state case between other parties.
66. No such authority existed and there is no contract between US Bank and the Receiver and CPWSS.
97. Neither the Bank nor Receiver had been
granted title or authority over CPWSS at the time of
intervention and the herein Plaintiffs continued to
operate the facility at the time of the attempt to Intervene.

App.37a
68. The trial court’s Order of Appointment of a
Receiver specifically ordered that title to the facility
would remain in the names of the herein Plaintiffs.
69. Although the Section 4901-1-12 Administrative Code of Ohio allows a person to respond via
memorandum to a motion filed by others, it does not
specifically allow the intervening movant to file a dispositive motion of its own of any kind until Intervenor
status has been granted by the PUCO.
70. Irrespective of the Code, and the regulations
of the PUCO, Defendants Bank and Receiver then
jointly filed a substantive Motion to Dismiss the Application of the herein Plaintiffs prior to being granted
intervenor status.
71. The motion to dismiss filed by the Defendants
should have been dismissed out of hand by the PUCO
as intervenor status had not yet been granted and
the motion to dismiss is not a responsive pleading to
Plaintiffs’ pending Application.
72. Plaintiffs’ Application for the rate increase
is not characterized as a motion for purposes of an
intervenor’s response that triggers discovery and
various other adversarial procedural rules of proof
and findings.
73. On January 23, 2019, the PUCO filed a
Journal Entry that allowed the Intervention based
upon the rationale “The appellate court agreed that
the WWTP constitutes a fixture upon the mortgaged
property, [sic] and is thus subject to the Receivership
Order.”
74. The PUCO erroneously relied upon the unconditional judgment of the court of appeals and made

App.38a
no independent judgment of its own regarding
the title rights of the Plaintiffs although such rights
were iterated in the trial court’s order appointing the
Receiver.
75. Inexplicably the PUCO then on the same day
granted the Defendants’ Motion to Dismiss without any
opportunity for a response from the herein Plaintiffs.
76. The Plaintiffs rightfully assumed that no
motion to dismiss, or response thereto, could be tendered
until after the Defendants had been granted leave to
intervene;
77. The PUCO unconstitutionally erred when it
granted leave to intervene and a motion to dismiss
on the same exact day and the obvious effect of this
act was to not allow CPWSS time to respond and
oppose the motion to dismiss and without a notice
from the PUCO or hearing.
78. PUCO’s conduct in granting Defendants’
motion to dismiss without an opportunity to be heard
constituted a deprivation of Plaintiffs’ constitutional
rights to due process under the 5th and 14th Amendments in that the property interests of the Plaintiffs
were destroyed or interfered with to a degree that
rendered their interests valueless.
79. PUCO unconstitutionally transferred Plaintiffs’ interests in CPWSS to a non-licensee for the
purpose of operating a water and waste treatment
plant in direct contravention of the departmental
regulations and the Ohio Code and depriving the
Plaintiffs of their lawful revenue from the facility.
80. Upon knowledge, information and belief,
PUCO has not issued a certificate of operation or a

App.39a
license, temporarily or permanent, of a water and waste
treatment facility to either Defendants Bank or
Receiver.
81. The Defendants Bank and Receiver are continuing to operate the water and waste treatment
facility without license or qualifications in contravention of state law all to the detriment of the public
safety and to Plaintiffs’ liability to private parties
clearly not located upon the Receivership Properly.
COUNT III
(VIOLATION OF 42 U.S.C. § 1985 (3))
(CONSPIRACY TO DEPRIVE THE DEFENDANTS
OF DUE PROCESS AND TO AVOID JUST
COMPENSATION UNDER THE 5TH AND 14TH
AMENDMENTS TO THE US CONSTITUTION)
82. Plaintiffs incorporate each preceding paragraph as if fully re-alleged here.
83. 42 U.S.C. § 1985(3) states in relevant part,
“Depriving persons of rights or privileges. If two or
more persons in any State or Territory conspire for
the purpose of preventing or hindering the constituted
authorities of any State or Territory from giving or
securing to all persons within such State or Territory
the equal protection of the laws; in any case of conspiracy set forth in this section, if one or more persons
engaged therein do, or cause to be done, any act in
furtherance of the object of such conspiracy, whereby
another is injured in his person or property, or
deprived of having and exercising any right or privilege
of a citizen of the United States, the party so injured
or deprived may have an action for the recovery of

App.40a
damages occasioned by such injury or deprivation,
against any one or more of the conspirators.”
84. Defendants Bank and Receiver jointly, intentionally and deliberately filed a motion intended to
deprive Plaintiffs of their constitutional right to due
process by filing a motion to dismiss with PUCO full
well knowing that such motion was premature in that
the Defendants had not yet been granted Leave to
Intervene.
85. PUCO cooperated and participated with the
Defendants Bank and Receiver to allow such conduct
in contravention of the Ohio Administrative Code.
86. The Defendants also intentionally together
filed the motion to dismiss to prevent having to pay
just compensation for the taking of Plaintiffs’ property.
COUNT IV
(VIOLATIONS OF THE
OHIO CONSTITUTION ART 1, §§ 1 AND 19)
87. Plaintiffs incorporate each preceding paragraph as if fully re-alleged here.
88. Section 1 of the Ohio Constitution states,
“Inalienable Rights
1. All men are, by nature, free and independent, and have certain inalienable rights,
among which are those of enjoying and
defending life and liberty, acquiring,
possessing, and protecting property, and
seeking and obtaining happiness and safety.”
89. Section 19 of the Ohio Constitution states in
relevant part, “Private property shall ever be held
inviolate, but subservient to the public welfare.. . . . ,

App.41a
and in all other cases, where private property shall
be taken for public use, a compensation shall first be
made in money, or first secured by a deposit of
money; and such compensation shall be assessed by a
jury, without deductions for benefits to any property
of the owner.”
90. All Defendants by their actions alleged above
violated the Ohio Constitution.
91. Plaintiffs’ property was taken for the public
use by over 1500 families and individuals.
92. The taking of Plaintiffs’ property was not
secured by a deposit of money.
93. No jury was impaneled by the Defendants
to assess the amount of such compensation.
94. The actions of the Defendants Judges and
the PUCO are equivalent to inverse condemnation.
95. As a direct result of Defendants’ actions the
Plaintiffs suffered harm and injury.
COUNT V
(UNJUST ENRICHMENT OF
DEFENDANTS BANK AND RECEIVER)
96. Plaintiffs incorporate each preceding paragraph as if fully re-alleged here.
97. The Defendants Bank and Receiver has
received and continues to retain money or benefits
which in justice and equity belong to the Plaintiffs.
98. Plaintiffs involuntarily conferred these benefits upon the Defendants Bank and Receiver by force
of the unconstitutional acts of the Defendants Judges
and the PUCO.

App.42a
99. The Defendants Bank and Receiver knew of
the benefits.
100. Under the circumstances, it would be
unjust to allow the Defendants to retain the benefits
without payment.
COUNT VI (CONVERSION)
101. Plaintiffs incorporate each preceding paragraph as if fully re-alleged here.
102. Plaintiffs had ownership, and continues to
have, the right to title and possession at the time of
the conversion as alleged above.
103. Defendants committed conversion through
wrongful and unconstitutional acts and disposition of
Plaintiffs property as alleged above.
104. Plaintiffs demanded compensation
such compensation was wrongfully refused.

and

105. As a direct result of Defendants’ actions,
the Plaintiffs were damaged.
UPCOMING NOTABLE EVENTS
AFFECTING THIS LITIGATION
106. Plaintiffs incorporate each preceding paragraph as if fully re-alleged here.
107. As additional rationale for Plaintiffs’ request
for a preliminary injunction, Defendants Bank and
Receiver have noticed all parties that they have
submitted a Request for Best and Final Offers for
the Receivership Property.

App.43a
108. The intent of the notice is to sell the Receivership Property (including the water and waste
treatment facility) to “any and all persons or entities.”
109. The notice demands that such “persons or
entities” submit their interest in purchasing the
property by July 23, 2019. A copy of said Notice is
attached hereto, incorporated herein and marked
Exhibit “A.”
110. Even Columbia West, one of the Defendants at the trial in the court of common pleas,
objected to the Bank’s and Receiver’s Request for Best
and Final Offers. A copy of Columbia West’s Response
to “Receiver’s” Request for Best and Final Offers is
attached hereto, incorporated herein and marked
Exhibit “B.”
111. A copy of the Bank’s and Receiver’s Reply
to Columbia West’s Response is attached hereto,
incorporated herein and marked Exhibit “C.”
112. The Defendants Bank and Receiver are
attempting to rush this process through so that
Plaintiffs’ rights to the water and waste treatment
facility are completely extinguished without recourse
or compensation,
113. If these Defendants are allowed to continue
this course of action the Plaintiffs will suffer irreparable
harm and injury.
114. There is a substantial likelihood that the
herein Plaintiffs will prevail in this action.
115. There are ongoing violations of United States
constitutional law. WHEREFORE, Plaintiffs pray that
this Court:

App.44a
(a) Enter judgment against the defendants;
(b) Enter a declaratory judgment declaring the
acts of the defendants to be a violation of Plaintiffs’
constitutional rights to compensation for property
taken under color of state law, equal protection, and
due process;
(c) Issue a declaratory judgment declaring that
the decision of the Ohio Court of Appeals is unconstitutional on its face and deprived Plaintiffs of their
5th and 14th Amendments to the US Constitution in
that it denied Plaintiffs just compensation for property
taken;
(d) Issue a declaratory judgment declaring that
the actions of PUCO is unconstitutional on its face in
that they violated Plaintiffs’ rights to due process
under the 5th and 14th Amendments to the US Constitution;
(e) Issue a declaratory judgment declaring that
the decision of the PUCO to dismiss Plaintiffs’ Application for Temporary and Permanent Rate increase is
unconstitutional as enforced and as applied;
(f) Issue a declaratory judgment declaring that
the Defendants Banks and Receiver conspired to
deprive Plaintiffs of their right to due process under
the 5th and 14th Amendments to the US Constitution and thereby violated 42 U.S.C. § 1985;
(g) Issue a preliminary and permanent injunction enjoining the Bank and the Receiver defendants,
their agents, servants, employees, officers from disposing of the alleged Receivership Property, more
specifically, the water and waste treatment facility,
until just compensation to the Plaintiffs has been

App.45a
paid and that proof of such damages will be determined by order of this Court;
(h) Plaintiffs’ investment in the CPWSS is significant and Defendants have not invested any funds
in the remedial efforts required for the operation of
the water and waste treatment facility and have no
lawful license or permit to operate such facility under
state law;
(i) No other remedy is adequate or complete without injunctive relief to prevent the immediate sale of
the water treatment and waste disposal system;
(j) Defendants’ Bank’s and Receiver’s actions
directly harm and injure Plaintiffs during the time
that this case is in progress;
(k) The benefit to the Plaintiffs outweighs the
burden upon the Defendants;
(l) The Plaintiffs’ rights are reasonably clear;
(m) Award plaintiffs’ costs, interest and reasonable attorneys’ fees for this action pursuant to 42
U.S.C. § 1988 and other relevant statutes; and,
(n) Order such other and further relief as the
Court deems just and proper under the circumstances.
/s/ Harold E. Lucas
Attorney for the Plaintiffs
Dated: July 15, 2019

App.46a
APPELLANTS’ CORRECTED BRIEF
(SEPTEMBER 18, 2019)
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
________________________
COLUMBIA MHC EAST, LLC, ET AL.,

Plaintiffs-Appellants,
v.
MELODY STEWART, ET AL.,

Defendants-Appellees.
________________________
No. 19-3748
Appeal from the United States District Court
for the Northern District of Ohio
Case No. 1:19-cv-01613
The Honorable Dan Aaron Polster
Lucas Law Group, PLLC
Harold E Lucas
3512 Kapalua Way
Raleigh, NC 27610
252-432-0015
lukelucasis@gmail.com

Attorney for the Plaintiffs-Appellants

App.47a
CIRCUIT RULE 26.1
CORPORATE DISCLOSURE STATEMENT
The following information is submitted pursuant
to Cir. R. 26.1 and Fed. R. App. P. 26.1: Pursuant to
6th Cir. R. 26.1, Columbia MHC East, LLC, d/b/a
CPWSS, et al. makes the following disclosure:
1.

Is said party a subsidiary or affiliate of a
publicly owned corporation? NO.

2.

Is there a publicly owned corporation, not a
party to the appeal, that has a financial
interest in the outcome? NO.
By:
/s/ Harold E Lucas
Lucas Law Group, PLLC

Attorney for Plaintiffs-Appellants

App.48a
[Table of Contents and Authorities Omitted]
STATEMENT IN SUPPORT OF
ORAL ARGUMENT
Oral argument is requested. Plaintiffs respectfully
request oral argument to address any questions the
panel of the United States Court of Appeals for the
Sixth Circuit may have regarding the facts and
applicable law. This appeal raises important issues
relating to the Plaintiffs-Appellants’ rights under the
Due Process and Takings and Just Compensation
Clauses of the Fifth Amendment and the Equal Protection Clause of the Fourteenth Amendment to the
United States Constitution.
JURISDICTIONAL STATEMENT
The District Court had subject matter jurisdiction
over this case pursuant to 28 U.S.C. § 1331. The
Plaintiffs-Appellants argue that the Ohio Court of
Appeals improperly took property without just compensation. The Ohio Supreme Court denied review. On
July 17, 2019, the District Court entered a final judgment dismissing all claims with prejudice. The Court
of Appeals has jurisdiction pursuant to 28 U.S.C.
§ 1291. On August 6, 2019, the Plaintiffs-Appellants
filed a timely Notice of Appeal.
STATEMENT OF THE ISSUES
Whether the doctrine of judicial absolute immunity
protects the decision of a State’s Court of Appeals,
whose court of last resort affirmed the decision, that
took property without just compensation in violation
of the Takings Clause of the Fifth Amendment, as

App.49a
applied against the States through the Fourteenth
Amendment.
Whether the district court committed reversible
error by dismissing the claims against the nonjudicial
defendants with prejudice without any discussion
regarding a relevant legal rationale and without allowing summons and any opportunity for the PlaintiffsAppellants to amend the complaint.
STATEMENT OF THE CASE
Plaintiffs-Appellants owned operating rights to a
substantial waste-water and treatment facility
(Columbia Park Water & Sewer System “CPWSS”) that
served a large mobile home park and other unrelated
properties owned by other entities not a party to the
underlying mortgage (a Dollar General, medical building and various single family homes). The mortgagee
of the mobile park is US Bank, a co-defendantappellee. The Plaintiffs-Appellants are not mortgagors
to the mortgage that is separate and distinct from
the CPWSS. CPWSS was regulated by the Public
Utilities Commission of Ohio (“PUCO”). US Bank
foreclosed on the mortgage and during the appeal
from the foreclosure action, the Ohio court of appeals
opined that the entire CPWSS is a “fixture” thereby
turning the fixtures into real property. The Opinion
by the Ohio Court of Appeals is attached hereto,
made a part hereof and marked Exhibit “A”. The
Ohio Supreme Court denied certiorari. The denial of
review is attached hereto, made a part hereof and
marked Exhibit “B”. This decision took a clearly
established property right from the Plaintiffs-Appellants and gave the property to US Bank, without any
compensation to the owners of CPWSS. The owners

App.50a
of CPWSS lost everything. CPWSS had operated the
facility since 2002 when the condition of that sale
was that the water treatment facility be split and
run as a Public Utility company
Immediately after the decision, the trial court
issued orders giving CPWSS to the Receiver on behalf
of US Bank. PUCO allowed the Receiver to operate
the CPWSS without a state-required license or management inspection. PUCO allowed US Bank, acting
through the Receiver, to intervene in an on-going
regulatory action by the Plaintiffs-Appellants seeking
a rate hike to repair the system. The Appellants
sought to recover statutory damages from PUCO for
the taking and diminution in value of the facility’s
license. The PUCO was unresponsive to the Plaintiffs-Appellants’ attempt to receive compensation for
the diminution of value of the facility license. The
Receiver has now put up CPWSS for sale to the highest
bidder.
Plaintiffs-Appellants filed this suit on July 15,
2019 in the Northern District of Ohio, demanding,
inter alia, injunctive and declaratory relief. On July
17, 2019, the district court trial judge dismissed the
entire Complaint with prejudice, citing judicial absolute
immunity and not mentioning the remaining defendants at all.
SUMMARY OF THE ARGUMENT
The initial Argument is that actions by State
courts may give rise to a violation of the Fifth
Amendment Takings and Just Compensation Clauses
of the U.S. Constitution made applicable to the States
through the Fourteenth Amendment.

App.51a
The Plaintiffs-Appellants also argues that the
claims against the remaining nonjudicial defendants
should not have been dismissed with prejudice because
they did not enjoy judicial immunity and the PlaintiffsAppellant are entitled to have their case heard by
the District Court.
The Plaintiffs-Appellants also argue that the
Court erred by not allowing the summons to issue
from the Clerk and not allowing the Complaint to be
amended once as a matter of course.
ARGUMENT
Rule 3.1 Meritorious Claims. A lawyer shall not
bring or defend a proceeding, or assert or controvert
an issue therein, unless there is a basis in law and
fact for doing so that is not frivolous which includes a
good faith argument for an extension, modification or
reversal of existing law.1
“[I]t is a lawyer’s duty, when necessary, to challenge the rectitude of official action. . . . 2 and seek
improvement of the law.”3
The US Supreme Court has not yet determined
whether the actions of a court may give rise to a
taking. In Stop the Beach Renourishment v. Florida
Department of Environmental Protection, 130 S. Ct.
2592 (2010), a Supreme Court plurality asserted that
takings liability could arise from judicial acts, as well
as from state or local legislation and executive agency
1 ABA Model Rules, 3.1
2 ABA Preamble, 5
3 ABA Preamble, 6

App.52a
decisions. The plurality’s rationale supporting “judicial
takings” was that the Just Compensation Clause of
the Fifth Amendment applies to State acts, not to
particular State actors. The U.S. Constitution’s text
indicates that takings are done by the State, as
opposed to a particular branch or agency of government.
It is prudential that judicial acts not be immunized
from takings liability.
In part of Justice Scalia’s opinion in Stop the
Beach Renourishment, joined by Chief Justice Roberts
and Justices Thomas and Alito, Scalia asserted that
judicial delineations of property rights might constitute
judicial takings. Justice Kennedy, joined by Justice
Sotomayor, wrote a concurrence grounded in substantive and procedural due process. That proposition is also put forth in a 1967 concurring opinion by
Justice Stewart in Hughes v. Washington, 389 U.S. 290,
296 (1967) (Stewart, J., concurring). See also, Barton
H. Thompson, Judicial Takings, 76 Va. L. Rev. 1449
(1990). Since Stop the Beach Renourishment, the
judicial takings literature has substantially grown. See,
e.g. John D. Echeverria, Stop the Beach Renourishment, Why the Judiciary is Different, 35, VT. L. Rev.
475 (2010); D. Benjamin Barros, The Complexities of
Judicial Takings, 45 U. Rich. L. Rev. 903 (2011); and
Nestor M. Davidson, Judicial Takings and State
Action : Rereading Shelly After Stop the Beach
Renourishment, 6 Duke J, Const. L. & Pub. Pol’y 75
(2011).
The Fifth Amendment’s Takings Clause “does
not proscribe the taking of property; it proscribes
taking without just compensation.” Williamson County

Planning Commission v. Hamilton Bank of Johnson
City, 473 U.S. 172, 194 (1985).

App.53a
In this matter the Ohio Court of Appeals conducted
a “definitional taking.” It defined the Plaintiffs-Appellants’ previously established property rights out of
existence. In Palazzolo v. Rhode Island, 533 U.S. 606
(2001), the Supreme Court stated that a State cannot
define existing property rights out of existence, even
as against post-enactment purchasers.
Property owners have a strong basis to bring
judicial takings challenges in the federal courts.
In his plurality opinion in Stop the Beach, Justice
Scalia asserted:
“The Takings Clause . . . is not addressed to
the action of a specific branch or branches.
It is concerned simply with the act, and not
with the government actor (“nor shall private
property be taken (emphasis added)). There
is no textual justification for saying that the
existence or scope of a State’s power to
expropriate private property without just
compensation varies according to the branch
of government effecting the expropriation.
Nor does common sense recommend such a
principle. It would be absurd to allow a State
to do by judicial decree what the Takings
Clause forbids it to do by legislative fiat.”
130 S. Ct. at 2601 (Citing Stevens v. Cannon
Beach, 510 U.S. 1207, 1211-12 (1994). (Scalia,
J., dissenting from denial of certiorari).

Stop the Beach reiterated that “the Takings
Clause bars the State from private property without
paying for it, no matter which branch is the instrument
of the taking.” Id. at 2602 “The Takings Clause, unlike
the Ex Post Facto Clauses . . . is not addressed to the

App.54a
action of a specific branch or branches. It is concerned
with the act, not the government actor.” Id. at 2601
The idea that a judicial action could result in a
compensable taking is not new. The Supreme Court
deemed judicial disregard of the principle of accession
a compensable taking in Webb’s Fabulous Pharmacies,
Inc. v. Beckwith, 449 U.S. 155, 160 (1980), where the
Florida high court arrogated to the State the interest
generated by a private litigant’s interpleader deposit.
Also, the Supreme Court in Pruneyard Shopping
Center v. Robins, 447 U.S. 74 (1980) decided on the
merits the contention that a California Supreme Court
decision extending the right of free expression to
privately owned shopping centers constituted a taking.
The plurality of the Court in Stop the Beach,
including Chief Justice John G. Roberts and Justices
Clarence Thomas and Samuel A. Alito, also noticed,
in Parts II and III of the decision, that if a court
declares that what was once an established right of
private property no longer exists, it has taken that
property in violation of the Takings Clause. Supra.
In the instant case, the Ohio courts’ assertion, by its
determination of Plaintiffs-Appellants’ property to be
a fixture upon the separate mortgaged property of
another, is tantamount to a declaration that PlaintiffsAppellants’ rights to CPWSS never existed at all.
But the Plaintiffs-Appellants purchased the property
years ago, owned the assets, paid property taxes
throughout all those years and held a state-issued
license to own and operate the facility.
It extremely important to note that the PlaintiffsAppellants have not brought suit against the Judges for
damages, the typical application of judicial immunity.
The Plaintiffs-Appellants recognizes the doctrine of

App.55a
judicial absolute immunity regarding damages; rather,
the Plaintiffs-Appellants contend that acts of a State
judge can violate the Takings and Just Compensation Clauses of the Fifth Amendment and of course
the Fourteenth Amendment applicable to the States.
The Complaint itself is entitled “Request for Injunctive
and Declaratory Relief” The Wherefore clause of the
Complaint states a claim for relief, to wit, for the
District Court to enter “a declaratory judgment
declaring the acts of the defendants to be a violation
of Plaintiffs’ constitutional rights to compensation for
property taken under color of state law, equal protection and due process.” The clause also requests
that the District Court “Issue a declaratory judgment
declaring that the decision of the Ohio Court of
Appeals is unconstitutional on its face and deprived
Plaintiffs of their 5th and 14th Amendments to the
US Constitution in that it denied Plaintiffs just compensation for property taken;”4
The District Court’s position that no claim can
be brought against a State judge destroys accountability
upon that State court and chills the ability of the
Plaintiffs-Appellants’ attorneys to zealously and
vigorously argue for their clients’ constitutional rights,
especially when the claims seek solely injunctive or
declaratory relief. To completely dismiss the Complaint,
with prejudice, could reasonably be interpreted as an
attempt to forever stifle the tenant of arguing for the
extension or reversal of existing law, to not make the
law better than it is now. It is to state the impossibility
of the federal judiciary to protect the constitutional
4 Plaintiffs’ Complaint at ¶ 15 (b) and (c). See Addendum. Re #1,
Page # 1.

App.56a
rights of Americans if violations of those rights are
committed by members of the State judiciary, or any
violative State act, committed legislatively or by
executive/agency conduct. It is frankly, a determination
from the District Court that all of the claims are
frivolous.
The Court held in Neitzke v. Williams that “a
complaint, containing as it does both factual allegations
and legal conclusions, is frivolous where it lacks an
arguable basis either in law or in fact.” Neitzke v.
Williams 490 U.S. 319 (1989), Cited by Denton v.
Hernandez, 504 U.S. 25, at 31 (1992). “ [A] court may
dismiss a claim as factually frivolous only if the facts
alleged are “clearly baseless;” a category encompassing
allegations that are “fanciful,” id., at 325, “fantastic,”
id., at 328, and “delusional . . . ” ibid.
The claims as outlined in the Complaint are
neither fanciful, fantastic or delusional in nature.
Some improbable allegations might properly be
disposed of on summary judgment, but to dismiss
them as frivolous without any factual development is
to disregard the age-old insight that many allegations
might be “strange, but true; for truth is always strange,
stranger than fiction.” Lord Byron, Don Juan, canto
XIV, stanza 101 (T. Steffan, E. Steffan, & W. Pratt
eds. 1977). “Once a claim has been stated adequately,
it may be supported by showing any set of facts consistent with the allegations in the complaint.” Conley
v. Gibson, 355 U.S. 41, 47, 78 S. Ct. 99, 2 L.Ed.2d 80
(1957).

Conley described the breadth of opportunity to
prove what an adequate complaint claims, not the
minimum standard of adequate pleading to govern a
complaint’s survival. The Plaintiffs-Appellants are

App.57a
entitled to have their claims heard in federal court.
In fact, Justice Scalia’s plurality opinion in Stop the
Beach expressly invites property owners to bring
judicial takings claims in the lower federal courts
challenging state court property decisions. See Stop
the Beach, 560 U.S. at ____, 130 S. Ct. at 2609-10
(plurality opinion). The Plaintiffs-Appellants here
are doing exactly that. This constitutional argument
should not be forever and completely eliminated by
any immunity cloak.
Regarding the District Court’s dismissal with
prejudice of all claims against the nonjudicial defendants, the Plaintiffs-Appellants are completely perplexed
at this result. It is difficult to understand the Court’s
legal rationale because there is simply no written
analysis by the Court. The Court’s Opinion is completely silent as to the reasoning behind the total
prejudicial dismissal of these claims. Dismissal is the
most drastic and severe of all actions by a court. It is
especially drastic when none of the remaining defendants have the luxury of judicial immunity or any type
of immunity.
This Court has stated in Knoll v. American Tel.
& Tel. Co. 176 F.3d 359 (6th Cir. 1999) citing Harmon,
110 F.3d at 367 (stating that “where a plaintiff has
not been given notice that dismissal is contemplated,
‘a district court should impose a penalty short of
dismissal unless the derelict party has engaged in
“bad faith or contumacious conduct’’’) (quoting Harris
v. Callwood, 844 F.2d 1254, 1256 (6th Cir. 1988))
(emphasis added); Freeland v. Amigo, 103 F.3d 1271,
1280 (6th Cir. 1997) (holding that “in the absence of
contumacious conduct, an alternate sanction that
would protect the integrity of pretrial procedures

App.58a
should be utilized rather than dismissal”) (emphasis
added). The Plaintiffs-Appellants realize this argument stems from a different context but argue for
application herein of the intent of the ruling.
The District Court did not give notice that
dismissal was contemplated, did not give the PlaintiffsAppellants an opportunity to amend the Complaint
and did not allow summons to issue to any of the
defendants, nonjudicial ones included. There is no
allegation by the Court of contumacious conduct.
Without the opportunity to contest the matter in the
federal judiciary, what other recourse is there? What
federal rights are more worthy to protect against
encroachment than the rights to property enjoyed by
all citizens according to our Constitution?
CONCLUSION
The Plaintiffs-Appellants contend that the State
judiciary is just as capable of taking property as
either of the other branches of government. Because
Justice Scalia did not command a majority for his
position, his discussion of the substantive judicial
takings standard is not binding precedent, dicta or
not. However, resolving the issue of whether the
Supreme Court needs to reach the substantive standard
is critical to lower federal courts deciding judicial
takings challenges because those courts will have to
decide whether and when they need to address the
substantive judicial takings standard.
The Court cannot decide whether there has been
a judicial taking until it decides what constitutes a
judicial taking. Thus, in critiquing Justice Breyer’s
position in Stop the Beach, Justice Scalia stated,
“Justice Breyer cannot decide that Petitioner’s claim

App.59a
fails without first deciding what a valid claim would
consist of.” Id. at ____, 130 S. Ct., at 2604. That is
precisely what the Plaintiffs-Appellant present. The
District Court should not dismiss with prejudice the
claims without deciding what a valid claim would be
for a State judicial taking. The District Court denied
the Plaintiffs-Appellants access to the federal judiciary
although there is clearly a claim “arising under [the]
Constitution, the Laws of the United States, and
Treaties made, or which shall be made, under their
Authority . . . ,” U. S. Const., Art. III, § 2,
The Plaintiffs-Appellants respectfully prays that
this Honorable Court remand the case to trial with a
different judge so as to prevent the possibility of bias
or, in the alternative, to grant the declaratory judgment
for violations of the U.S. Constitution and order that
a hearing be held to determine the value of the property taken or the value of the diminution and loss of
the operating license.
Respectfully submitted:
Lucas Law Group, PLLC
/s/ Harold E Lucas
3512 Kapalua Way
Raleigh, NC 27610
252-432-0015
lukelucasis@gmail.com

Attorney for Plaintiffs-Appellants

App.60a
CERTIFICATE OF COMPLIANCE
The undersigned, counsel of record for the Plaintiffs-Appellants, furnishes the following in compliance
with the F.R.A.P. Rule 32(a)(7)(C):
I hereby certify that this brief conforms to the
rules contained in F.R.A.P. Rule 32(a)(7)(B) for a brief
produced with a proportionally spaced font, to wit,
12-point Times New Roman font. The length of this
brief, as counted by 2010 Microsoft WORD, is 3828
words.
By:
/s/ Harold E Lucas
Lucas Law Group, PLLC

Attorney for Plaintiffs-Appellant
Dated: September 17, 2019

App.61a
APPELLANTS’ PETITION FOR EN BANC
(JUNE 16, 2020)
IN THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
________________________
COLUMBIA MHC EAST, LLC, ET AL.,

Plaintiffs-Appellants,
v.
MELODY STEWART, ET AL.,

Defendants-Appellees.
________________________
No. 19-3748
Appeal from the United States District Court
for the Northern District of Ohio
District Court Case No. 1:19-cv-01613
The Honorable Dan Aaron Polster
Plaintiffs’-Appellants’ Combined Petitions for
Re-Hearing En Banc and Panel Re-Hearing
Pursuant to Rule 35, et seq., and Rule 40, et seq.,
of the Federal Rules of Appellate Procedure, the
Plaintiffs-Appellants respectfully petition this Honorable
Court for a re-hearing by the panel and also petition
for a hearing en banc on this matter.

App.62a
Lucas Law Group, PLLC
Harold E Lucas
3512 Kapalua Way
Raleigh, NC 27610
252-432-0015
lukelucasis@gmail.com

Attorney for the Petitioners
[*****]
[Table of Contents and Authorities Omitted]
INTRODUCTION AND BACKGROUND
This Petition and proceeding involves one or
more questions of exceptional importance in that the
Petitioners posit that a state court judge in their
official capacity is a state actor capable of a 5th
Amendment “taking” clause violation for purposes of
the constitutional requirement that the state has to
provide just compensation to the previous property
owner who had “clearly established property rights”
that was taken by an official state act. Under the
14th Amendment, the state of Ohio must follow the
5th Amendment of the United States Constitution.
There is significant US Supreme Court dicta in the
affirmative regarding this question.
The second issue of exceptional importance is
that the panel’s holding regarding mootness on account
of an unaccepted settlement agreement runs counter
to a recent decision of the United Sates Supreme
Court as explained further in this Petition.
On May 29, 2020, the panel of the 6th Circuit
Court of Appeals improperly dismissed Plaintiffs’

App.63a
appeal because a “settlement agreement with PUCO
and Shapiro mooted this case” and for “lack of jurisdiction.” See, Unpublished Opinion, May 29, 2020, Page
8. “[E]vents after the district court’s decision render
the Plaintiffs’ claims moot.” See, Unpublished Opinion,
May 29, 2020, Page 2. The Court’s opinion is incorrect
on both the facts and the law as explained further
in this Petition.
This case began when a federal lawsuit was filed
for violations of the 5th and 14th Amendments to the
US Constitution and 42 U.S.C. § 1983 in that the
state of Ohio, represented by state actors, failed to
provide just compensation to the Petitioners for the
taking of their long-term and clearly established
property rights to a water treatment and waste plant
(“WWTP”). The taking was effectuated by the Ohio
Court of Appeals’ opinion that the plant was a fixture
to a property owned by other private entities. The
opinion was followed through by the state trial court
who by order transferred the property to a Receiver.
Petitioners’ constitutional claims of just compensation
were not litigated in state court. Until that moment,
US Bank held no contractual right to the Petitioners’
property. In fact, the Ohio Court of Appeals found as
a matter of law the Petitioners were not encumbered
to the mortgage. At its essence, the trial litigation in
the state court, instituted by US Bank, was a typical
breach of contract claim primarily between US Bank
and the two TICs (Tenants-in Common) Columbia
East & West. Petitioners were not a party to the
Mortgage agreement and were not “borrowers” or
obligated to US Bank for over 10 years since its
acquisition by the Petitioners. Petitioners did not
default on any loan.

App.64a
In less than 36 hours of the filing of the federal
complaint, the federal trial court dismissed all claims,
with prejudice, singularly stating that the decision
was based only upon judicial immunity. The case
was ordered closed. No mention was made of the
Petitioners’ constitutional claims. No preliminary
discovery was allowed. Petitioners were not even
allowed to file service of the complaint and summons.
No amendment to the complaint was allowed. It was
as if the entire case was made to disappear. Without
any analysis, the court found that “Plaintiffs do not
have a cognizable claim.” (R.4, Op. & Order, Page ID
46). So, Petitioners rightfully appealed to the 6th
Circuit.
A payment, or lack thereof, of a third party to
Plaintiffs for the subject property would not have
erased the state’s obligation to pay “just compensation”
at the time of the 5th Amendment “taking” action to
extinguish or diminish Plaintiffs’ property rights.
Furthermore, these constitutional claims were explicitly
and specifically omitted from the proposed expired
settlement agreement and were not waived by the
Plaintiffs as understood by all parties and the trial
court to the settlement agreement.
ARGUMENT
MOOTNESS
The so-called settlement agreement was merely
a proposed option to settle the claims between US
Bank, the Receiver, the mortgagors Columbia East
and West, assisted by the Magistrate and negotiated
with the parties thereto. The proposed negotiated
agreement contained numerous waiver requirements

App.65a
and dismissal of some pending claims among the
parties. None of these dismissals and waivers involves
a taking 5th Amendment claim against the remaining
Defendants in this case. The proposed settlement
agreement itself stated that the Petitioners specifically
and explicitly refused to waive their 5th and 14th
Amendment rights claims against the remaining
Defendants in this case. The proposed settlement
agreement states, in pertinent part, “The 6th Circuit
case will remain pending against Melody J. Stewart,
Tim McCormack, Patricia Ann Blackmon and Public
Utilities Commission of Ohio.” See Journal entry, US
Bank, N.A. v. Columbia Park East MHP, LLC, et al.,
January 10, 2020, Court of Common Pleas, Cuyahoga
County, Case No. CV-17-887110, ¶ 15(a).
Even so, and more importantly, the proposed
settlement agreement was never executed by all
signatories and the deadline for sale has come and
gone. The Bank, as mortgagee, refused to accept the
agreement as written and no bid was submitted for
the minimum amount at auction sometime in March
of 2020. The agreement is null and void and no
longer exists. It is off the table. Since the Defendants
continue to deny liability for just compensation, the
Plaintiffs still retain their 5th Amendment property
right to just compensation. Jurisdiction remains
because the state took property rights through state
action and the transfer of Plaintiffs’ property rights
is still without just compensation.
The question is whether an unaccepted offer
that may satisfy the named plaintiff’s individual
claim is sufficient to render a case moot when the
complaint seeks relief on behalf of the plaintiff. The
United States Supreme Court answers in the negative.

App.66a
In the recent case of Campbell-Ewald Co. v.
Gomez, 136 S. Ct. 663 (2016) the Court stated, “We hold
today, in accord with Rule 68 of the Federal Rules of
Civil Procedure, that an unaccepted settlement offer
has no force. Like other unaccepted contract offers, it
creates no lasting right or obligation. With the offer
off the table, and the defendant’s continuing denial of
liability, adversity between the parties persists.” Id.
at 666.
It is against Supreme Court precedent for the
panel to hold that an unaccepted agreement to sell
supersedes any constitutional relief that this Court
could provide. At the minimum, the Petitioners’ argument is that the value of the Petitioners’ property
rights were taken or substantially diminished in value
and tantamount to a “taking.” No interim event has
“completely and irrevocably eradicated the effects of
the alleged violation.” Ct of Appeals Op at 5. The
Petitioners do not need an exception to the mootness
doctrine. The case is simply not moot in any way,
shape or form. As the panel stated, “[t]he heavy burden
of demonstrating mootness rest on the party claiming
mootness” citing Cleveland Branch, NAACP v. City
of Parma, 263 F.3d 513, 531 (6th Cir. 2001). Ct of
Appeals Op at 6. That heavy burden in this case has
not been met. The appeal brief of the Ohio Attorney
General’s Office had an affirmative duty to instruct
this court that the settlement agreement had not
been accepted by all of the parties and was therefore
void and of no consequence at this time as to the
issue of mootness.

App.67a
STATE JUDGES AND PUCO AS STATE ACTORS
Undoubtedly this case arose under the U.S. Constitution and requires an interpretation of the Constitution for a correct decision. Petitioners claim an
actual invasion of their constitutional rights by the
enforcement of some act of public authority. It is also
without question that the opinion by the Ohio Court
of Appeals is an act of public authority. It is an official
act. In a recent unanimous decision, rendered by
Chief Justice Roberts, the U.S. Supreme Court held,
“An “official act” is a decision or action on a “question,
matter, cause, suit, proceeding or controversy. That
question or matter must involve a formal exercise of
governmental power and must also be something
specific and focused that is “pending” or “may by law
be brought” before a public official. To qualify as an
“official act,” the public official must make a decision
or take an action on that question or matter or agree
to do so.” McDonnell v. U.S., 136 S. Ct. 2355, 2358
(2016). “A public official may also make a decision or
take an action by using his official position to exert
pressure on another official to perform an “official
act,” or by using his official position to provide advice
to another official, knowing or intending that such
advice will form the basis for an “official act” by another
official.” Id, at 2359.
In Stop the Beach Renourishment v. Florida
Department of Environmental Protection, 130 S. Ct.
2592 (2010), the Supreme Court plurality asserted
that takings liability could arise from judicial acts, as
well as from state or local legislation and executive
agency decisions. The plurality’s rationale supporting
“judicial takings” was that the Just Compensation
Clause of the Fifth Amendment applies to State acts,

App.68a
not to particular State actors. The U.S. Constitution’s
text indicates that takings are done by the State, as
opposed to a particular branch or agency of government.
It is prudential that judicial acts not be immunized
from takings liability.
In part of Justice Scalia’s opinion in Stop the
Beach Renourishment, joined by Chief Justice Roberts
and Justices Thomas and Alito, Scalia asserted that
judicial delineations of property rights might constitute
judicial takings. Justice Kennedy, joined by Justice
Sotomayor, wrote a concurrence grounded in substantive and procedural due process. That proposition is also put forth in a 1967 concurring opinion by
Justice Stewart. Hughes v. Washington, 389 U.S. 290,
296 (1967) (Stewart,J., concurring). See also, Barton
H. Thompson, Judicial Takings, 76 Va. L. Rev. 1449
(1990).
Since Stop the Beach Renourishment, the judicial takings literature has substantially grown. See,
D. Benjamin Barros, The Complexities of Judicial
Takings, 45 U. Rich. L. Rev. 903 (2011); and Nestor M.
Davidson, Judicial Takings and State Action: Rereading Shelly After Stop the Beach Renourishment, 6
Duke J, Const. L. & Pub. Pol’y 75 (2011).
The Fifth Amendment’s Takings Clause “does not
proscribe the taking of property; it proscribes taking
without just compensation.” Williamson County

Planning Commission v. Hamilton Bank of Johnson
City, 473 U.S. 172, 194 (1985).
In this matter the Ohio Court of Appeals conducted
a “definitional taking.” It defined the Petitioners’
previously established property rights out of existence.
In Palazzolo v. Rhode Island, 533 U.S. 606 (2001).

App.69a
the Supreme Court was clear that a State cannot
define existing property rights out of existence, even
as against post-enactment purchasers.
Property owners have a strong basis to bring
judicial takings challenges in the federal courts.
In his plurality opinion in Stop the Beach, Justice
Scalia asserted:
“The Takings Clause . . . is not addressed to
the action of a specific branch or branches.
It is concerned simply with the act, and not
with the government actor (“nor shall private
property be taken (emphasis added)). There
is no textual justification for saying that the
existence or scope of a State’s power to
expropriate private property without just
compensation varies according to the branch
of government effecting the expropriation.
Nor does common sense recommend such a
principle. It would be absurd to allow a State
to do by judicial decree what the Takings
Clause forbids it to do by legislative fiat.”
Id, at 2602.

Stop the Beach reiterated that “the Takings
Clause bars the State from taking private property
without paying for it, no matter which branch is the
instrument of the taking.” Id, at 2602. “The Takings
Clause, unlike the Ex Post Facto Clauses . . . is not
addressed to the action of a specific branch or branches.
It is concerned with the act, not the government
actor.” Id, at 2601.
The plurality of the Court in Stop the Beach,
including Chief Justice John G. Roberts and Justices
Clarence Thomas and Samuel A. Alito, also noticed,

App.70a
in Parts II and III of the decision, that if a court
declares that what was once an established right of
private property no longer exists, it has taken that
property in violation of the Takings Clause. Supra.
In the instant case, the Ohio courts’ assertion, by its
determination of Plaintiffs-Appellants’ property to be
a fixture upon the separate mortgaged property of
another, (although the plant provided treatment and
water to other properties outside of the mortgaged
property) is tantamount to a declaration that Petitioners’ rights to CPWSS never existed at all. (The
Ohio Court of Appeals erroneously stated that the
plant solely provided services to the mortgaged property). But the Plaintiffs-Appellants purchased the
property over years ago, owned the assets, paid
tremendous maintenance costs, paid local property
taxes and state and federal fees and taxes throughout
all those years and held a state-issued license to own
and operate the facility up until the Opinion by the
Ohio Court of Appeals. Compensation was constitutionally due to the Petitioners.
The Petitioners did not bring suit against the
Judges individually for damages, the typical application
of judicial immunity; rather, the Petitioners contend
that acts of a State judge can violate the Takings and
Just Compensation Clauses of the Fifth Amendment
and of course the Fourteenth Amendment applicable
to the States. The Complaint itself is entitled “Request
for Injunctive and Declaratory Relief.” The Wherefore
clause of the Complaint states a claim for relief, to
wit, for the District Court to enter “a declaratory
judgment declaring the acts of the defendants to be a
violation of Plaintiffs’ constitutional rights to compensation for property taken under color of state law,

App.71a
equal protection and due process.” The clause also
requests that the District Court “Issue a declaratory
judgment declaring that the decision of the Ohio
Court of Appeals is unconstitutional on its face and
deprived Plaintiffs of their 5th and 14th Amendments to the US Constitution in that it denied Plaintiffs just compensation for property taken;” See Complaint at ¶¶ 115 (b) and (c).
Finally the panel was quick to give its dicta, in
passing, that no litigant could “ever sue an individual
state judge” (the Petitioners did not sue the judges
individually, but rather in their official capacity) in
federal court.” Ct of Appeals Op. at 7. The panel
stated, “[w]e doubt Plaintiffs’ ability to bring the
claims they did against the state judges in federal
court.” Ct of Appeals Op at 8. This was one of the
essential claims of the Petitioners which the trial
court and the panel sidestepped. This was implicit in
the appeal. This issue is the rising impetus of this
case. The District Court’s position that no claim can
be brought against a State judge destroys accountability
upon that State court and chills the ability of the
Petitioners’ attorneys to zealously and vigorously argue
for their clients’ constitutional rights, especially when
the claims seek solely injunctive or declaratory relief.
To completely dismiss the Complaint, with prejudice,
could reasonably be interpreted as an attempt to
forever stifle the tenant of arguing for the extension
or reversal of existing law, to not make the law
better than it is now. It is to state the impossibility of
the federal judiciary to protect the constitutional
rights of Americans if violations of those rights are
committed by members of the State judiciary. Frankly,
it is a determination from the District Court that all

App.72a
of the Petitioners’ claims are frivolous. The trial court
had no evidence at the time of dismissal that there
was no cognizable claim. This Court can provide
meaningful relief to the Petitioners.
The opinion by the panel appears more about
mischaracterizing state judges as “non-state” actors
subject to constitutional limitations than about
“mootness.” It is natural for state judges to be
uncomfortable with this issue. But they are not
beyond the purview of the United States Constitution.
This is a virtual “circling of the wagons.” United
States citizens have, and should have, the constitutional
right to redress its government for violations of federal law without fear or favor. What does the constitution matter if people in powerful positions can
ignore the clear dictates of the US Constitution? The
federal judicial oath requires the administration of
“justice without respect to persons . . . ” 28 U.S. Code
§ 453.
Because of the panel’s comment concerning the
ability of the Petitioners to “ever” sue a state judge,
and without casting aspiration in any manner
whatsoever, Petitioners respectfully request that this
Court take judicial notice that one of the panel
members’ spouse is a former member of the party
Defendant Ohio Court of Appeals and a present
member of the Ohio Court of Appeals Association. It
is doubtful that every member of the 6th Circuit
Court of Appeals has such a connection to the party
Defendant in this case.

App.73a
CONCLUSION
For all of the reasons set forth in this Petition,
the Petitioners respectfully request that this court
reconsider its previous opinion or determine that an
en banc panel should be convened to hear the argument
to remand the case to trial court for a determination
of just compensation under the 5th Amendment of the
U.S. Constitution.
Respectfully submitted,
/s/ Harold Emmett Lucas
Lucas Law Group, PLLC
3512 Kapalua Way
Raleigh, NC 27610
252-342-0015
lukelucasis@gmail.com

Attorney for the Petitioners

App.74a
CERTIFICATE OF COMPLIANCE
This document complies with the word limit of
FRAP 32 and 35(b)(2)(A) and FRAP 40(b)(1) because,
excluding the parts of the document exempted by
FRAP 32(f) this document contains 2874 words.
This document complies with the typeface
requirements of FRAP 32(a)(5) and the type-style
requirements of FRAP 32(a)(6).
/s/ Harold Emmett Lucas

Attorney for the Petitioners
Dated June 12, 2020

App.75a

APPELLANTS’ MEMORANDUM OF LAW EN BANC
(SEPTEMBER 15, 2020)
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
________________________
COLUMBIA MHC EAST, LLC, ET AL.,

Plaintiffs-Appellants,
v.
MELODY STEWART, ET AL.,

Defendants-Appellees.
________________________
No. 19-3748
Appeal from the United States District Court
for the Northern District of Ohio
Case No. 1:19-cv-01613
The Honorable Dan Aaron Polster
Plaintiffs’-Appellants’ Memorandum of Law
Supplementing the Initial Petition for
Reconsideration by This Honorable Court En Banc
Lucas Law Group, PLLC
Harold E Lucas
3512 Kapalua Way
Raleigh, NC 27610
252-432-0015
lukelucasis@gmail.com

Attorney for the Plaintiffs-Appellants

App.76a
[Table of Contents and Authorities Omitted]
INTRODUCTION
This appeal began as an appeal against the trial
court’s dismissal with prejudice based solely upon
judicial immunity with the court stating that “no cognizable claim” existed. Petitioners appealed arguing
that state actors could violate the 5th Amendment of
the US Constitution for the taking of property without
just compensation.
This Memorandum is in response to the initial
Panel’s Second Opinion, an “Amended Opinion.” This
Panel has shown itself to be predisposed due to its
comments in the original Opinion that “we question
whether a dissatisfied litigant may ever sue an individual state judge . . . ” Opinion Doc. 45-2, May 29,
2020, Page 7 (Italics added). And again, “we doubt
Plaintiffs’ ability to bring the claims they did against
the state judges in federal court.” Opinion Doc. 45-2,
May 29, 2020, Page 8 (The claims, inter alia, were of
violations of the 5th Amendment “Takings” and “Just
Compensation” Clauses. Petitioners fully briefed the
issue including dicta in support thereof from the US
Supreme Court). The Panel further revealed its predisposition by: 1) mischaracterizing the status of the
Petitioners and the actual request made by the Petitioners in their Motion to dismiss the non-state actors;1
1 The Panel’s initial Opinion mischaracterizes the Petitioners
and states, “Borrowers borrow and borrowers lose.” Opinion, 452, May 29, 2020, Page 1. But the truth is that the Petitioners
were never “borrowers.” The Petitioners did not owe the Bank a
single penny. They were not litigating a foreclosure; they were
contesting the transfer of their property to the Bank as a fixture.
Even the Ohio Court of Appeals noted that Petitioners were not
subject to the underlying mortgage.

App.77a
2) refusing to sua sponte construe the Petitioners’
Motion to Dismiss under 42(b) as a Rule 21 request
for Dismissal as has been previously done in this
circuit when it is obvious that the Plaintiffs intended
to only dismiss certain parties and not the “action”
or “appeal.” 3) inaccurately characterizing Petitioners’ motion for dismissal under 42(b) as a “request”
for dismissal with prejudice of the “action”; 4)
improperly labeling the Clerk’s Order of Dismissal as
“with prejudice” by attempting to replace the official
Clerk’s Order (under 42(b)) with its Opinion issued
May 29, 2020 and its Amended Opinion issued September 1, 2020, wherein it listed the dismissal as
“with prejudice.” Petitioners are entitled to have
unbridled confidence in the federal judiciary and are
apprehensive of this Panel and questions whether
the foregoing reflects the fair administration of justice
or is intended to operate as to prevent a hearing on
the merits of Petitioners’ constitutional claims regarding state actors.
SUMMARY
On September 1, 2020, while awaiting a decision
on a Petition for a re-hearing before the full panel en
banc, the original 3-Judge panel of this Court filed
another Opinion, characterized as an “amended
Opinion” and granted the Petitioners until September
15, 2020, to file a “memorandum of law supplementing
their original petition.”
The Amended Opinion states that because the
state Receivership “ . . . Order remains on the docket
in the state court” and “we dismissed the private
parties with prejudice, prompted by Plaintiffs’ request.
[w]e again dismiss for lack of jurisdiction.” (italics

App.78a
added) Page 4, Op. 9/01/2020. Neither issue is justifiable
grounds to declare this case moot.
On or about December 30, 2019, in response to
Petitioners’ Motion to Voluntarily Dismiss Defendants
M. Shaprio Real Estate Group Ohio, LLC and U.S.
Bank National Association from this action under
FRAP 42(b), the Circuit Clerk signed an Order.2 The
Order by its terms did not dismiss the appeal and
was not entered “with prejudice.” Importantly, the
Petitioners’ Motion did not include the required
dismissal agreement signed by the parties specifying
how costs were to be paid and pay any fees that were
due. The Order stated that the “motion to dismiss
appellees M. Shapiro Real Estate Group Ohio, LLC
and U.S. Bank “is GRANTED and the parties are
dismissed from this appeal.” The Docket entry stated
the same. The Petitioners did not request and the
Clerk did not grant an Order dismissing the “appeal”
with prejudice.
Since dismissal was by a court order and not by
“notice” under Rule 41(a)(1), this Panel apparently
has subsequently decided to interpret the motion to
dismiss as filed under F.R. Civ. P. 41(a)(2). 3 The
2 (b) DISMISSAL IN THE COURT OF APPEALS. The circuit
clerk may dismiss a docketed appeal if the parties file a signed
dismissal agreement specifying how costs are to be paid and
pay any fees that are due. But no mandate or other process may
issue without a court order. An appeal may be dismissed on the
appellant’s motion on terms agreed to by the parties or fixed by
the court. (boldness and italics added)
3 (2) By Court Order; Effect. Except as provided in Rule 41(a)(1),
an action may be dismissed at the plaintiff’s request only by
court order, on terms that the court considers proper (italics
added). If a defendant has pleaded a counterclaim before being

App.79a
Rule clearly states that “Unless the order states
otherwise, a dismissal under this paragraph (2) is
without prejudice.”
After the Clerk’s Order, this Panel issued two (2)
Opinions, each purporting to supplant the Clerk’s original Order (a reversal/modification without a reversal/
modification), and stated that the dismissal is “with
prejudice” as to all parties and to the case itself. The
Order did not state “with prejudice.” Even both docket
entries (#45 and 53) of the Opinions failed to state
“with prejudice.”
Under Rule 41(a)(2) there must be a request by
the Plaintiff. It is imminently clear that the Petitioners
made no such request to dismiss the entire “action,”
yet this Panel states that because 2 private parties
were dismissed, all Defendants were dismissed, and
the entire case was dismissed, with prejudice, by
request of the Petitioners.
The Order is signed by the Clerk and stated to
be under Rule 42(b). The present outcome is only
possible if the Panel reversed the Order of the Clerk
(without calling it a reversal) and dismissed the
entire action, with prejudice, including claims against
the state actors that were not actually intended or
“requested” to be dismissed by the Petitioners. The
Petitioners’ clear and obvious “request” was solely to
dismiss certain private parties because they never
filed, nor intended to file, a “request” to dismiss the
served with the plaintiff’s motion to dismiss, the action may be
dismissed over the defendant’s objection only if the counterclaim
can remain pending for independent adjudication. Unless the
order states otherwise, a dismissal under this paragraph (2) is
without prejudice.

App.80a
“action” under 41(a)(2) or even the “appeal” under Rule
42(b).
Petitioners respectfully point to the legal doctrine
that court filings are to be construed by their “substantive content and not by their labels” and
respectfully asks that this Court recognize the guiding
principle of the Federal Rules of Civil Procedure, that
procedural rules should be construed pragmatically, so
as to ensure the just and efficient resolution of legal
disputes.
Under the circumstances and as a fair remedy,
and not without precedent, this Court should consider
the Petitioners’ Voluntary Motion of Dismissal under
42(b) as a motion to dismiss a party under Rule 21.
See Coleman v. Ohio State Univ. Med. Ctr., No. 2:11cv-0049, 2011 WL 3273531, at *3 (S.D. Ohio Aug. 1,
2011).4 The Respondents can point to no objective
and reasonable justification which would prevent
this Court from doing so with the exception that a
dismissal of a party under Rule 21 does not operate
as an dismissal of the “action.” Perhaps this is the
very result that this Panel is attempting to avoid. It
is clear black-letter law that Courts have a virtually
“unflagging” obligation to exercise its jurisdiction.
Stephen I. Vladeck, The Increasingly “Unflagging Obligation”: Federal Jurisdiction After Saudi Basic and
Anna Nicole, 42 Tulsa Law Rev. 553 (2013). Fed. Rule
Civ. Proc. 8(e) states, “CONSTRUING PLEADINGS.
4 Rule 21. Misjoinder and Nonjoinder of Parties.
Misjoinder of parties is not a ground for dismissing an action. On
motion or on its own, the court may at any time, on just terms,
add or drop a party. The court may also sever any claim against
a party.

App.81a
Pleadings must be construed so as to do justice.”
Construing the motion as a Rule 21 motion would
present a reasonable proportionality between the
means employed and the aim sought to be realized
by the Petitioners.
In this Circuit, Rule 21 may be used for the dismissal of a single defendant. See Taylor, 286 F.2d at
785 (“[W]e think that [Rule 21] is the one under
which any action to eliminate” a single defendant
should be taken); see also Letherer v. Alger Grp.,
LLC, 266 (6th Cir. 2003), “Because the Letherers did
not dismiss the entire action, but rather sought to
dismiss only one party from the action, we will assume
that the district court dropped Loewen as a party
pursuant to Rule 21.” (Italics added) overruled on

other grounds by Blackburn v. Oaktree Capital Mgmt.,
LLC, 511 F.3d 633, 636 (6th Cir. 2008); Wilkerson v.
Brakebill, No. 3:15-CV-435-TAV-CCS, 2017 WL 401212
(E.D. Tenn. Jan. 30, 2017) (“Rule 21 is the more appropriate rule”); Lester v. Wow Car Co., Ltd., No. 2:11cv-850, 2012 WL 1758019, at *2 n.2 (S.D. Ohio May
16, 2012) (“the Sixth Circuit has suggested that
dismissal of an individual party, as opposed to an
entire action, is properly conducted pursuant to Rule
21, not Rule 41”); Warfel v. Chase Bank USA, N.A.,
No. 2:11-cv-699, 2012 WL 441135, at *2 (S.D. Ohio Feb.
10, 2012). Therefore, this Court can, and Petitioners
respectfully request that it does, construe Plaintiffs’
Notice of Voluntary Dismissal as a motion to dismiss
a party under Rule 21.
Petitioners point out that the 1st footnote in
Letherer v. Alger, supra. states that the Defendant
Alger complained that “the Letherers and Loewen
first mentioned Rule 21 in their briefs before this

App.82a
court and objects that the district court did not refer
to Rule 21 in its order. However, as the district court
did not refer to any rule in its order, that omission
surely does not foreclose us from reviewing the
appropriateness of dismissal under Rule 21.” In this
case, no Rule was mentioned or referred to in the
multiple Opinions or on docket entries #45 and #53.
“[J]ust cause” is also required for the Court to
invoke Rule 21. Just cause allows the Court to consider
prejudice towards the nonmoving parties. See
Wilkerson, 2017 WL 401212, at *2; Arnold v. Heyns,
No. 13-14137, 2015 WL 1131767, at *4 (E.D. Mich. Mar.
11, 2015). In this analysis Courts determine whether
the nonmoving party would suffer “plain legal prejudice” and consider: (1) defendant’s effort and expense
of preparation for trial; (2) excessive delay and lack
of diligence on plaintiff’s part in prosecuting the case;
(3) insufficient explanation for the need for dismissal;
and (4) whether a motion for summary judgment is
pending.” Grover v. Eli Lily & Co., 33 F.3d 716, 718
(6th Cir. 1994). Considering the above factors, this
Court should note that no Defendant has filed an
Answer or Motion for Summary Judgment and has
likely expended little time and few resources, if any,
preparing for trial in this matter. Secondly, the Petitioners have engaged in no excessive delay in moving
forward in this case and have engaged in a good faith
attempt to resolve the case. Thirdly, Petitioners
assert that they have sufficiently explained the cause
of their motion for dismissal and obviously no motion
for summary judgment is pending because Defendants have not objected to the dismissal.
The State Docketed Order: Whether the Order is
still docketed in state court is irrelevant to the issue

App.83a
here. Many items are routinely docketed which by
their very terms become expired, inactive or no longer
have any bearing on collateral issues. The Order (the
“Order”) was merely a contingent order that came
about through negotiations between the Plaintiff US
Bank and the two Tenants-in-Common (Columbia
East and West) in a separate state foreclosure case
giving the Receiver the authority to hold an auction
for the Receivership Property. The Petitioners did
not agree to a sale in the Order (they did not have
the authority, they were divested of any ownership
rights). They agreed to dismiss the Bank and the
Receiver from this case. The Order’s purpose was to
provide a level of comfort to a prospective Buyer that
no clouds existed on title. Petitioners simply agreed
to dismiss the Bank and Receiver from the federal
matter since no 5th Amendment “takings” without
“just compensation” violation was alleged against the
non-state actors. Constitutional claims against state
actors presented no cloud upon title for a prospective
Buyer. The Petitioners’ original Complaint plead in
the alternative for just compensation, not just return
of title and not just to prevent a sale before compensation was determined. It is undisputed that a sale by
the Receiver would not make Petitioners constitutionally whole and axiomatic that payment by a third
party to the Bank of some unknown speculative
amount does not operate as a legal extinguishment of
the constitutional responsibility of the state to justly
compensate Petitioners for property taken by the state
actors. Regardless, the Order timed out and expired
by its own terms.5
5 The Order stated that the “Auction shall be held . . . no later
than 35 days after the Effective Date.” To the best of Petition-

App.84a
The terms of the “Order” were signed by a Judge
of the state court and was entered into the docket as
well. The plain language of the judicially signed and
docketed “Order,” shows the Petitioners specifically
and explicitly agreed to only dismiss the two private
parties to this lawsuit and to continue and retain the
federal case against the state actors. Petitioners had
no standing whatsoever in the state order to agree or
disagree to any material terms of the Order.
Rule 42(b)
FRAP 42(b) states that “An appeal may be dismissed on the appellant’s motion on terms agreed to
by the parties or fixed by the court.” Petitioners
never filed a motion to dismiss the “appeal.” The
mislabeling of the motion under Rule 42(b) may have
been an inadvertent error; that is counsel’s error, not
the Petitioners.
There does exist a conflict among the circuits
regarding dismissal of individual Defendants without
dismissing the entire “action” and although counsel
is also a member of the 3rd and 9th Circuits, this is
counsel’s first case in this Circuit. Counsel now
recognizes that Rules 41 and 42 in this Circuit does
not allow a court to dismiss some, but not all, of the
defendants in a single case. See United States ex rel.
Doe v. Preferred Care, Inc., 326 F.R.D. 462 (E.D. Ky.
2018). “In the Sixth Circuit, a plaintiff may only
dismiss an “action” using Rule 41(a) and an “action”
is interpreted to mean the “entire controversy.”’’
ers’ belief, the Effective Date has long expired and no extension
has been granted. The contingency has not been met and the
Order is of no practical effect and does in no way “moot” this case.

App.85a

Philip Carey Manufacturing Company v. Taylor, 286
F.2d 782, 785 (6th Cir. 1961).
The First, Third, Fifth, Eighth, and Ninth Circuits
have taken an opposite approach, interpreting Rule
41(a) to refer to the dismissal of all claims against a
single defendant rather than the entire controversy
against all defendants. Cabrera v. Municipality of
Bayamon, 622 F.2d 4, 6 (1st Cir. 1980); Young v. Wilky
Carrier Corp., 150 F.2d 764, 764 (3d Cir.), cert. denied,
326 U.S. 786, 66 S. Ct. 470, 90 L.Ed. 477 (1946); Plains
Growers, Inc. v. Ickes-Braun Glasshouses, Inc., 474
F.2d 250, 254-55 (5th Cir. 1973); Johnston v. Cartwright, 355 F.2d 32, 39 (8th Cir. 1966); Pedrina v.
Chun, 987 F.2d 608, 609-10 (9th Cir. 1993). Many
civil procedure treatises have also concluded that
“the sounder view and the weight of judicial authority” suggest that a plaintiff can dismiss fewer than
all defendants pursuant to Rule 41(a)(1). See, 9
Charles Alan Wright and Arthur R. Miller, Federal
Practice and Procedure § 2362, at 250 (2d ed. 1995); see
also 8 James William Moore et al., Moore’s Federal
Practice § 41.21[3][a], at 41-35 (3d ed. 2000) (explaining
that dismissal of fewer than all defendants is permissible under Rule 41 “as long as all claims are dismissed as against each one affected”). Although
some Circuits disagree with the Sixth Circuit’s
interpretation of Rule 41(a), Petitioners understand
that this Court is presently bound by Sixth Circuit
precedent. See Preferred Care, 326 F.R.D. at 464; see,
e.g., Van Leeuwen v. Bank of Am., N.A., 304 F.R.D.
691, 693-94 (D. Utah 2015) (discussing the circuit
split and citing cases).
The order itself cited Rule 42(b) but Petitioners
did not move to dismiss the “appeal” as evidenced by

App.86a
the failure to file the required dismissal agreement.
The Clerk’s Order of dismissal in its precise language
did not operate as a dismissal of the “appeal.”
SUMMARY
For the foregoing reasons. Petitioners respectfully
request that this Court construe their Motion for
dismissal of US Bank, N.A. and M. Shapiro Real
Estate Group Ohio, LLC as a Rule 21 motion and
dismiss only those appellees from this matter and in
the alternative find that no dismissal with prejudice
has been properly entered against Petitioners.
Respectfully submitted:
/s/ H.E. Lucas
Harold E Lucas
Lucas Law Group, PLLC
3512 Kapalua Way
Raleigh, NC 27610
252-432-0015
lukelucasis@gmail.com

Attorney for the
Plaintiffs-Appellants-Petitioners

App.87a
CERTIFICATE OF COMPLIANCE
This document complies with the word limit of
FRAP 32 and 35(b)(2)(A) and FRAP 40(b)(1) because,
excluding the parts of the document exempted by
FRAP 32(f), this document contains 2874 words. This
document complies with the typeface requirements of
FRAP 32(a)(5) and the type-style requirements of
FRAP 32(a)(6).

/s/ Harold E Lucas
Lucas Law Group, PLLC

Attorney for Plaintiffs-Appellant
Dated September 15, 2020

